<html>
<title> - HURRICANE KATRINA: THE DEFENSE DEPARTMENT'S ROLE IN THE RESPONSE</title>
<body><pre>[Senate Hearing 109-813]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-813
 
    HURRICANE KATRINA: THE DEFENSE DEPARTMENT'S ROLE IN THE RESPONSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
27-028                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                   Thomas R. Eldridge, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
     Dan M. Berkovitz, Minority Counsel, Permanent Subcommittee on 
                             Investigations
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Levin................................................    19
    Senator Akaka................................................    25
    Senator Dayton...............................................    28
    Senator Warner...............................................    41

                               WITNESSES
                       Thursday, February 9, 2006

Hon. Paul McHale, Assistant Secretary of Defense for Homeland 
  Defense, U.S. Department of Defense............................     7
Admiral Timothy J. Keating, Commander, North American Aerospace 
  Defense Command and U.S. Northern Command......................     9
Lieutenant General H. Steven Blum, Chief, National Guard Bureau..    10
Lieutenant General Russel L. Honore, Commanding General, First 
  U.S. Army......................................................    43
Major General Bennett C. Landreneau, Adjutant General, Louisiana 
  National Guard, and Director, Louisiana Office of Homeland 
  Security and Emergency Preparedness............................    44

                     Alphabetical List of Witnesses

Blum, Lieutenant General H. Steven:
    Testimony....................................................    10
    Prepared statement with attachments..........................    78
Honore, Lieutenant General Russel L.:
    Testimony....................................................    42
    Prepared statement with attachments..........................    91
Keating, Admiral Timothy J.:
    Testimony....................................................     9
    Prepared statement...........................................    73
Landreneau, Major General Bennett C.:
    Testimony....................................................    43
    Prepared statement with attachments..........................   109
McHale, Hon. Paul:
    Testimony....................................................     7
    Prepared statement...........................................    63

                                APPENDIX

Post-hearing letter for the Record from Lieutenant General Russel 
  L. Honore dated February 21, 2006                                 108
Post-hearing questions and responses for the Record from:
    Hon. Paul McHale.............................................   159
    Admiral Timothy J. Keating...................................   167
Exhibit 5........................................................   172
Exhibit 6........................................................   190
Exhibit 18.......................................................   203
Exhibit 27.......................................................   236
Exhibit B........................................................   242
Exhibit C........................................................   255


    HURRICANE KATRINA: THE DEFENSE DEPARTMENT'S ROLE IN THE RESPONSE

                              ----------                              


                       THURSDAY, FEBRUARY 9, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, Lieberman, Levin, Akaka, 
and Dayton.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Today the Committee will scrutinize the performance of the 
U.S. military, both National Guard and active duty forces, in 
the response to Hurricane Katrina. We will analyze the 
military's actions on the ground, review the military's work 
with other agencies involved in the response, and explore the 
relationship between the Guard and the active duty troops. In 
doing so, we will examine the fundamental issue of whether the 
U.S. military is properly structured to meet the 21st Century 
threats to our homeland.
    There is no question that our men and women of our military 
shared much in common with the first responders helping the 
victims of Katrina. That is, they performed very well under 
extraordinarily difficult and, at times, dangerous conditions.
    There is also no question that the military brought 
substantial resources to relieve the suffering of the Gulf 
region. From Meals Ready to Eat (MREs), vehicles, and 
communications equipment to the ships that became vital 
platforms for search and rescue operations, we have heard 
throughout these hearings of the military's enormous 
contributions to the relief effort.
    There is also no question, however, that the military was 
not immune from the conflicts, the confusion, and the lack of 
coordination that occurred across all levels of government and 
that may have prevented the response from being as quick and 
effective as it should have been. Furthermore, it is apparent 
that these problems existed not just between the military and 
other Federal agencies, but also within the military itself.
    The active duty military and the National Guard share many 
traits: Unmatched material assets, experienced and dedicated 
leaders, and highly trained personnel possessing courage and 
devotion to duty. Yet during Katrina, the active duty military 
and the National Guard at times seemed to be, to paraphrase 
Churchill's famous quip about England and America, two forces 
separated by a common mission.
    Katrina revealed a split between Northern Command, the 
combatant command focused on homeland security and created in 
the wake of September 11, and the National Guard, which is 
under the command of its State's Governor. The very institution 
that Americans look to as a model for a unified chain of 
command revealed itself to have fallen a bit short in that 
regard. Better coordination between the active duty forces and 
the National Guard must be ensured before the next disaster 
strikes.
    I appreciate the appearance today of our first panel of 
very distinguished witnesses: The Assistant Secretary of 
Defense for Homeland Defense Paul McHale; the Commander of 
Northern Command, Admiral Timothy Keating; and the Chief of the 
National Guard Bureau, General Steven Blum. I look forward to 
hearing their views on these important issues.
    The second panel of witnesses will describe military 
preparedness and response on the ground for Hurricane Katrina. 
I'm very pleased to have with us today General Russel Honore, 
the Commander of the Joint Task Force Katrina, and General 
Bennett Landreneau, the Louisiana National Guard Adjutant 
General.
    I'm interested in hearing from all of our witnesses what 
problems they encountered in melding two forces into one 
cohesive effort, the challenges they faced in trying to 
establish a clear and effective chain of command, and the 
difficulties in the relationship between DOD and FEMA. For 
example, FEMA officials have told the Committee that the 
Department of Defense subjected its Katrina mission assignments 
to what FEMA viewed as unnecessarily protracted and detailed 
reviews that delayed the requested support.
    On the other hand, we know that Defense officials often saw 
those same requests as vague and not clearly identifying the 
exact support that was needed. ``Send us everything you've 
got'' is not a reasonable request to make of a military that 
bears enormous national security responsibilities around the 
world.
    This conflict reveals, above all, one of the fundamental 
problems that the Committee's investigation has uncovered no 
matter what level of government we examined, and that is the 
lack of concerted pre-disaster planning so that the 
expectations and capabilities are understood in advance and so 
that needs can be met rapidly, effectively, and efficiently 
when disaster strikes.
    Among the questions I hope we will answer this morning are: 
What did DOD do to prepare for this storm, both in terms of 
planning and prepositioning of assets? Why didn't the 
Department of Defense work through the coordination role with 
FEMA before the storm, and did the failure to do so contribute 
to the sense among some FEMA officials that the Department was 
slow to assist in the effort?
    When were active duty troops requested, and should they 
have been deployed earlier? Did disputes over the chain of 
command affect the timing of the deployment of troops? Why was 
the command and control issue still being debated almost a week 
into the disaster, and was this a distraction or worse?
    If most of the work in the response was done by the 
National Guard with little visibility by Northern Command, then 
do we need to better define Northern Command's mission going 
forward? Is Northern Command truly prepared to assist in 
natural disasters as well as in terrorist attacks? What will 
the Department do going forward to bridge the gaps in 
coordination between the active duty forces and the National 
Guard?
    These questions raised by Katrina delve into the 
philosophical basis of American Government, in many ways. They 
bring into focus the principle of federalism and the respective 
roles and authorities of 50 sovereign States under one central 
but limited government.
    From the founding of our Nation to the present day, 
questions of deploying the military in response to domestic 
crises have been of grave concern. They are addressed in our 
Constitution and in laws ranging from the Posse Comitatus Act 
to the Insurrection Act to the Stafford Act.
    The key question for this panel is: How can we continue to 
uphold the traditional principles of federalism as we confront 
the challenges and threats of the 21st Century? We will explore 
that question in the context of Hurricane Katrina, an event 
that brought longstanding traditions and deeply rooted 
political philosophy into a collision with reality.
    The U.S. military, both active duty forces and the National 
Guard, is unparalleled in excellence, commitment, and courage. 
We must find a better way to employ this valuable resource when 
disaster strikes our Nation while we continue to embrace the 
principles of federalism that lie at the heart of our 
governmental system.
    Senator Collins. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you. Thanks, Madam Chairman. Good 
morning to the witnesses.
    As the Chairman has indicated, today's hearing is our 17th 
in the Committee's investigation of preparations for and 
response to Hurricane Katrina. This one offers us an 
opportunity to examine a very critical question about what role 
we want our military to have in dealing with the most 
catastrophic of natural disasters, whether they're natural or 
inflicted by terrorist enemies.
    The answer to that question, of course, has both very 
practical and very constitutional implications. Despite its 
designation as a supporting agency under the National Response 
Plan, which we've talked a lot about in this Committee, I must 
say that the Defense Department's preparation and initial 
response to Hurricane Katrina seemed to me to be, 
unfortunately, about as passive as most other Federal agencies.
    But when the military did engage, it engaged with full 
force and great effectiveness. It took on the responsibilities 
of many other agencies at different levels of our government. 
By Thursday of the week of the hurricane, FEMA essentially 
turned over its logistical obligations to the military, 
resulting in a $1 billion mission assignment, the largest in 
the history of FEMA mission assignments.
    Members of Congress, including myself, frequently and 
proudly say that the United States has the best military in the 
history of the world because of the men and women who comprise 
it, but also because we invest in them and our military. I 
think in the days after Hurricane Katrina, we were reminded 
again of the wisdom of those investments.
    The military's contribution to the rescue of the 
communities along the Gulf Coast that were hit by Katrina is 
yet another testament to the fact that we not only have 
extraordinary men and women serving in our military under 
extraordinary leaders, but that the Defense Department itself 
has the best communications equipment, logistical ability, 
equipment generally like helicopters and boats, medical teams, 
and other resources necessary to respond to a catastrophe.
    The question is when and how we use those assets. Today 
we're going to hear from two panels of witnesses, the senior 
uniformed officers who led the operations on the ground in 
Louisiana and the top civilians and uniformed officers who set 
the policies and implemented the full military response.
    With a few individual exceptions, the Pentagon's 
preparations for this cataclysmic storm in the days before 
landfall were slow and unsure. Situational awareness was poor, 
and the Pentagon was hesitant to move necessary assets unless 
they were requested.
    Our military is superb, as those of us who are privileged 
to serve on the Armed Services Committee in addition to this 
one know, at planning for different threat situations. But it 
does appear that the Pentagon did not do much planning in 
advance of Katrina to anticipate the challenges of a so-called 
Incident of National Significance, as defined under the 
National Response Plan.
    On Tuesday of Katrina's week one, the military recognized 
that the rescue of the Gulf Coast was uncertain and foundering 
under the administration of the Department of Homeland 
Security. In this regard, we are indebted to Deputy Secretary 
of Defense Gordon England, who that morning was watching, as 
the rest of the Nation and the world were, the suffering of 
people in New Orleans particularly. And he was watching on 
television.
    He concluded that troops and equipment needed to be 
deployed immediately, without the normal paperwork. And we 
thank him for that. We also thank Lieutenant General Blum for 
orchestrating the deployment of thousands of National Guard 
troops from around America to the Gulf Coast and Admiral 
Keating for ordering the deployment of, ultimately, 22,000 
active duty soldiers, sailors, airmen, and marines, and the 
materiel to support them.
    We are of course also grateful to the men and women in the 
trenches. Under the most difficult of circumstances, Major 
General Landreneau ably led the Louisiana National Guard 
troops, which swelled from a force of 5,000 based in Louisiana 
to an eventual force of 30,000, literally from every State in 
the Union, mobilized, I believe, by Lieutenant General Blum.
    Lieutenant General Honore we all got to know very well 
during that period of time. He's from Louisiana. He had 
previous experience in responding to hurricanes. As Katrina 
approached and he was at First Army Command in Atlanta, he 
followed the weather forecast and acted on that day. He asked 
the Pentagon to identify equipment and assets that he knew from 
previous experience would be needed if the storm was as bad as 
everybody was saying it definitely would be at that time.
    I hope you understand in the next sentence that I'm not 
making a pun here. General Honore filled a large and visible 
leadership role in New Orleans when he arrived. Mayor Nagin 
actually likened him to John Wayne, which may not be far from 
the truth. General Honore's conduct actually was exactly in the 
forceful and decisive manner that was necessary to reassure all 
who saw him there and throughout the Nation as the city plunged 
deeper into the crisis.
    In some sense, General Honore's presence as the top active 
duty Federal Army officer there highlights the critical 
constitutional questions that are at stake. How much authority 
should the military have in domestic matters? We've heard and 
asked much about the Posse Comitatus law here; I'm sure we'll 
ask it again. And we know that this country has a tradition 
which contains a strong aversion to military control in 
civilian settings unless absolutely necessary. These are 
difficult questions that must be studied in a thoughtful manner 
and resolved in advance, not in the heat of a crisis, as 
appears to have happened here.
    As we learned from Governors Blanco and Barbour last week, 
when disaster strikes a State, no governor in America is going 
to willingly cede authority over their National Guard to the 
Federal Government. But what if there is a catastrophe so great 
that the National Guard is overwhelmed, as the New Orleans 
Police and the firefighters were in the Hurricane Katrina 
situation?
    What if, God forbid, the disaster is an unexpected 
terrorist attack without the warning that the weather experts 
gave us about Hurricane Katrina coming? Is federalization then 
necessary to bring all the critical resources of the military 
to bear? Hurricane Katrina showed us that we need to define 
where that line is drawn to the best of our ability and define 
it ahead of the crisis.
    Governor Blanco testified to the pressure that she felt 
from the White House to federalize her National Guard. She said 
she thought the pressure resulted from considerations that were 
not purely military, but political, calling it ``posturing 
instead of a real solution.'' I'd like to ask some of our 
witnesses to help us better understand what that was all about.
    Hurricane Katrina also revealed some uncertainties and 
tensions between the Pentagon, NORTHCOM, and the National Guard 
Bureau regarding the military's role in domestic crises. Our 
Committee has learned through interviews and documents of some 
disagreements about the degree to which the Defense Department 
should operate on U.S. soil, and these disagreements may have 
limited the military's response time and effectiveness in this 
case because of the initial hesitation to deploy active duty 
troops or even to preposition assets before Hurricane Katrina 
made landfall and before the Department of Defense was 
requested to do so.
    Once again, the fictional Hurricane Pam exercise made clear 
that local and State resources would immediately be overwhelmed 
by a Category 3 or higher storm, which Katrina was. The 
National Response Plan (NRP) had been in place to guide all 
Federal agencies in the event of such a catastrophe.
    But instead of using the NRP to address in advance these 
matters related to a catastrophic event and to resolve 
bureaucratic differences and construct a comprehensive action 
plan, the Federal Government appeared to be operating without 
that advance implementation of the NRP and therefore too much 
on the fly.
    And the roles of the military, National Guard and active 
duty, look to have been part of a response that was cobbled 
together as the week went on instead of in advance. It is a 
great tribute to our military that it and the men and women who 
wear the uniforms nevertheless performed so well.
    I'm sure all of our witnesses would agree that's no way to 
manage a crisis of this magnitude, without the necessary 
planning and pre-training for it. It's certainly not what we 
envisioned when this Committee led in the creation of the 
Homeland Security Department. The lack of a plan led to 
unnecessary confusion, unnecessary bureaucratic struggles and, 
I'm afraid, more human suffering than should have occurred.
    This hearing can and, I'm confident, will, help us resolve 
some of those questions so that we do better next time when, as 
I've said earlier, we may not have the advance notice that we 
had in this occasion. I look forward to the testimony of the 
witnesses, and I thank you, Madam Chairman.
    Chairman Collins. Thank you.
    I'm very pleased to welcome our first panel this morning. 
Paul McHale is the very first Assistant Secretary of Defense 
for Homeland Defense. Admiral Timothy Keating is the Commander 
of U.S. Northern Command and the North American Aerospace 
Defense Command. And Lieutenant General Steven Blum is the 
Chief of the National Guard Bureau.
    I'm going to put more extensive introductions into the 
record, but I know we're eager to proceed at this point. But I 
want to thank each of you for your long career in public 
service, and I want to share with my colleagues an interesting 
fact about General Blum. And that is that his son serves in the 
Maryland National Guard and was deployed during Hurricane 
Katrina to assist in Louisiana. So I think that's an 
interesting little fact for our Committee.
    This is an ongoing investigation, so I'm going to ask that 
you stand, and I'm going to ask that the second panel stand at 
the same time so that I can swear you all in.
    Do you swear that the testimony you will be giving to the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Secretary McHale. I do.
    Admiral Keating. I do.
    General Blum. I do.
    General Honore. I do.
    General Landreneau. I do.
    Chairman Collins. Thank you. Secretary McHale, we're going 
to begin with you.

 TESTIMONY OF THE HON. PAUL McHALE,\1\ ASSISTANT SECRETARY OF 
    DEFENSE FOR HOMELAND DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Secretary McHale. Senator Collins, Senator Lieberman, 
Senator Levin, Senator Dayton, good morning. I have submitted 
my formal statement for the record, and Madam Chairwoman, with 
your consent, I'll simply proceed to a brief and relatively 
informal opening statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary McHale appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    Chairman Collins. Thank you. Your full statement will be 
included in the record.
    Secretary McHale. In order to maximize the time for 
questions, including what I hope will be detailed follow-up 
questions on the important points that were raised by Senator 
Lieberman, my opening remarks will be brief and to the point.
    The Department of Defense response to Hurricane Katrina was 
the largest, fastest deployment of military forces for a civil 
support mission in our Nation's history. That is a fact. 
Hurricane Katrina made landfall along the Gulf Coast during the 
early morning hours of August 29. By landfall plus 5, more than 
34,000 military forces had been deployed into the affected 
area. That's more than five times the number of military 
personnel deployed within the same time frame in response to 
1992's Hurricane Andrew.
    By landfall plus 7, more than 53,000 military personnel had 
been deployed in response to Katrina, three times the 
comparable response to Hurricane Andrew. And by September 10, 
military forces reached their peak at nearly 72,000, 50,000 
National Guardsmen and 22,000 active duty personnel, a total 
deployment for Katrina more than twice the size of the military 
response to Hurricane Andrew. In scope and speed, no civil 
support mission in the history of the United States remotely 
approaches the DOD response to Hurricane Katrina.
    The Department of Defense received 93 mission assignments 
from FEMA and approved all of them, and contrary to some of the 
statements that have been made to you previously, both during 
hearings and during questioning by Members of your staff, we 
respectfully disagree, very forcefully disagree, with the 
characterization that the processing and ultimate approval of 
those requests for assistance took an undue amount of time.
    I would hope that we would pierce the rhetoric of past 
criticism, look to the documented time frame for the approval 
of those requests for assistance (RFAs), and focus on the 
complexity of those RFAs, and in that context, I believe that 
we worked very effectively. And I invite your questioning on 
those points.
    Many of these mission assignments were approved verbally by 
Secretary of Defense Donald Rumsfeld and Acting Deputy 
Secretary of Defense Gordon England and were in fact in 
execution when the paperwork caught up days later. I want to 
assure the Members of this Committee: Our Department felt a 
sense of urgency before, during, and after landfall and acted 
upon it. And the record well documents that activity.
    In addition to the 72,000 men and women in uniform, the 
Department of Defense coordinated the deployment of 293 medium 
and heavy lift helicopters, 68 airplanes, 23 U.S. Navy ships, 
13 mortuary affairs teams, and two standing joint headquarters 
to support FEMA's planning efforts.
    DOD military personnel evacuated more than 80,000 Gulf 
Coast residents and rescued another 15,000. Military forces 
provided significant medical assistance, including 10,000 
medical evacuations by ground and air, the delivery of medical 
treatment to more than 5,000 sick and injured persons, as well 
as support for disease prevention and control. DOD committed 
more than 2,000 healthcare professionals for civil support 
contingencies and approved six bases as FEMA staging areas.
    When violence erupted in New Orleans, Lieutenant General 
Blum, Chief of the National Guard Bureau, coordinated over a 3-
day period the deployment of 4,200 National Guard military 
police and security personnel into New Orleans, dramatically 
increasing the security presence. The President deployed 7,200 
active duty military personnel for humanitarian relief. Their 
presence, in combination with National Guard security forces, 
restored civil order in the City of New Orleans.
    DOD delivered critical emergency supplies: More than 30 
million meals, including 24.5 million MREs and some 10,000 
truckloads of ice and water. As noted by Senator Lieberman a 
few moments ago, in a single RFA processed within a 24-hour 
period of time, we took on a $1 billion civil support mission 
to provide full logistics support throughout a two-state area.
    No RFA of that complexity had ever been considered, let 
alone processed and approved, within 24 hours, contrary to the 
express criticism stated on the record to this Committee by 
previous witnesses. Their timeline was factually inaccurate.
    In short, we believe that DOD met its civil support mission 
requirement and did so because our men and women in uniform 
acted to minimize paperwork, cut bureaucracy, and provide much-
needed capabilities with a sense of urgency. The domestic 
deployment of 50,000 National Guardsmen from all 50 States, 
three Territories, and the District of Columbia was 
historically unprecedented and central to the success of our 
total force mission.
    In closing, fully consistent with the observations made by 
Senator Lieberman, our performance was not without defect. We 
did very well, but there are areas, many in the same areas 
tracked by Senator Lieberman in his opening comments, where we, 
too, believe that we must do better next time around. Many of 
the areas identified by the Senator were in fact first 
identified by our Department during internal after-action 
reviews. And let me touch on those very briefly.
    Our performance can be improved. DOD communication with 
first responders was not interoperable. Early situational 
awareness, as noted by the Senator, was poor, a problem that 
should have been corrected following identical damage 
assessment challenges during Hurricane Andrew.
    Military command and control, as noted, was workable but 
not unified. National Guard/Joint Staff/NORTHCOM planning, 
though superbly executed, was not well integrated. Our task-
organized deployment reflected the total force, but our 
planning did not.
    The roles, missions, and authorities of DOD in responding 
to catastrophic events need to be examined. Portions of the 
National Response Plan need to be reviewed and perhaps 
rewritten. With the disestablishment of JTF Katrina, the 
Department shifted from response and recovery operations to a 
focus on a comprehensive after-action review of our response to 
Hurricane Katrina. We performed well. We were not passive. We 
were not slow.
    The execution of the missions met or exceeded any standard 
previously set for civil support missions in the history of the 
United States. We take pride in that. But with equal 
conviction, we are absolutely committed to better performance 
the next time around. We do intend to get better.
    My colleagues and I would welcome your questions following 
the opening statements by the other two witnesses.
    Chairman Collins. Thank you. Admiral Keating.

 TESTIMONY OF ADMIRAL TIMOTHY J. KEATING,\1\ COMMANDER, NORTH 
  AMERICAN AEROSPACE DEFENSE COMMAND AND U.S. NORTHERN COMMAND

    Admiral Keating. Madam Chairman, good morning. Members of 
the Committee, good morning. And thanks for the opportunity to 
appear before your Committee this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Keating appears in the 
Appendix on page 73.
---------------------------------------------------------------------------
    A couple of key points that I would like to make in 
addition to the formal opening remarks that we've submitted for 
the record that you've indicated would be included. From the 
U.S. Northern Command perspective, we were directed by the 
Secretary of Defense to support the National Response Plan, and 
we did so. We supported the Department of Homeland Security and 
the Federal Emergency Management Agency disaster relief 
efforts.
    Now, as you know, the National Response Plan and Title 10 
statutes define U.S. Northern Command's responsibilities and 
authorities for civil support. From our perspective, hurricane 
relief was conducted as a coordinated effort among Federal, 
State, and local governments, as well as nongovernmental 
organizations. Our experience in exercises before Hurricane 
Katrina and since demonstrate that we have adequate capability 
to meet homeland defense and civil support crises.
    I'd like to point out that cooperative efforts with allies 
from around the world, over 100, particularly Canada and 
Mexico, paid dividends during and after the catastrophe. The 
global community rushed to offer humanitarian assistance to the 
U.S. We're grateful for their generosity.
    As Secretary McHale mentioned, we're now engaged at 
Northern Command in a comprehensive after-action review of our 
Nation's response to Hurricane Katrina. We, the U.S. Northern 
Command, have sent over 50 representatives to the Gulf Coast 
and other areas to talk with Federal, State, and local 
officials. Their critical lessons learned report will improve 
future civil support operations. Of this I'm confident.
    We're anxious to engage in discussions regarding the 
Defense Department's role and U.S. Northern Command's role in 
disaster response and the authorities required for Department 
of Defense action. It's important to note, I think, that 
throughout this operation, Katrina and Rita, we at Northern 
Command did not lose focus on our primary mission, homeland 
defense. We were ready and able to thwart any attempt by our 
adversaries to exploit this tragedy.
    In closing, I would recommend to you that the men and women 
of the U.S. Northern Command are resolutely committed to our 
mission to deter, prevent, and defeat attacks by those who 
would threaten our United States. I look forward to your 
questions.
    Chairman Collins. Thank you, Admiral. General Blum.

   TESTIMONY OF LIEUTENANT GENERAL H. STEVEN BLUM,\1\ CHIEF, 
                  NATIONAL GUARD BUREAU (NGB)

    General Blum. Good morning. Chairman Collins, Senator 
Lieberman, distinguished Members of the Committee, thank you 
for the opportunity to discuss the National Guard's role in the 
preparation and response to Hurricane Katrina here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Blum with attachments appears 
in the Appendix on page 78.
---------------------------------------------------------------------------
    The National Guard, as you know, is no longer a strategic 
reserve. It is an operational force at home. It has always been 
an operational force for the past 368 years. We are your 
military first responders for homeland missions.
    The National Guard is an essential part of the Department 
of Defense. As such, the National Guard soldiers and airmen 
continue to answer the Nation's call to duty. America's 
governors, through emergency management assistance compact 
agreements, at the request of the governors of the affected 
States, rapidly fielded the largest National Guard domestic 
response force in the history of our Nation in the wake of 
Hurricane Katrina.
    At a time when the National Guard had over 80,000 citizen 
soldiers and airmen deployed around the world in the Global War 
on Terrorism in Iraq, Afghanistan, and other regions, soldiers 
and airmen, as you said, from every State, all 50 States, the 
Territories of Guam and the Virgin Islands, the Commonwealth of 
Puerto Rico, and the District of Columbia, all responded to the 
area. Not a single National Guard failed to respond to 
Hurricane Katrina.
    The Guard responded in record time with a record number of 
troops, as has been stated, over 50,000 Army and Air Guard 
members at its peak. The National Guard forces were in the 
water, on the streets, and in the air throughout the affected 
region rescuing people, saving lives, all within 4 hours of the 
hurricane winds clearing and allowing the recovery efforts to 
start.
    The Guard had more than 11,000 citizen soldiers and airmen 
involved in these rescue operations on August 31. The National 
Guard amassed an additional 30,000 troops in the following 96 
hours. There were more than 6,500 in New Orleans alone by 
September 2, 2005. The fact that the National Guard units were 
deployed in Iraq at the time of Katrina did in no way, in any 
way or any measure, lessen the Guard's ability to respond with 
trained and ready personnel and equipment.
    The National Guard was the first military responder, as it 
should be, beginning rescue operations, as I said, within 4 
hours of the storm's passage. Guardsmen provided to the 
disaster area by the Nation's governors rescued more than 
17,000 American citizens by helicopter alone, evacuated and 
relocated another greater than 70,000 American citizens to 
places where they could have hope and start recovering their 
lives.
    The National Guard restored order and assisted in recovery 
efforts. The National Guard pilots flew thousands of sorties 
over long hours without a single mishap. Never before in our 
history has the National Guard responded so quickly and so well 
to such a dire need of our fellow American citizens here at 
home inside the United States.
    As provided by the National Response Plan, the National 
Guard's immediate response to the Hurricane Katrina disaster 
was, as I said, unprecedented in military history. We did not 
wait. We anticipated needs. We responded immediately and, I 
feel, very effectively. The National Guard delivered when and 
where they were needed, often getting formal requests long 
after the delivery of the capability.
    Can we do better? In a word, absolutely, we can do better. 
The National Guard must be better equipped for these missions 
here in our homeland, for homeland defense and to support 
homeland security missions. The interagency and 
intergovernmental relationships are absolutely fundamental to 
the success of a Federal response in any disaster, and we must 
continue to foster even stronger relationships between the 
National Guard, the Department of Homeland Security, the U.S. 
Northern Command, and the Department of Defense.
    The track record of the National Guard in response to 
Hurricane Katrina demonstrates that whether overseas or here at 
home, America's National Guard is ready. It's reliable. It's 
accessible. And it's absolutely essential to the security of 
this Nation.
    Thank you. I look forward to your questions.
    Chairman Collins. Thank you, General.
    Admiral Keating and General Blum, I'd like to read to you 
from the National Guard's after-action report concerning 
Katrina. In your exhibit books, it's behind tab No. 27.\1\ The 
part I'm going to read is also on the poster before you.
---------------------------------------------------------------------------
    \1\ Exhibit 27 appears in the Appendix on page 236.
---------------------------------------------------------------------------
    According to the report, ``With few exceptions, the 
National Guard Joint Task Force elements had significant 
command and control difficulties while trying to respond to the 
disaster. These difficulties were compounded with the 
deployment of Title 10 forces''--in other words, active duty 
forces--``into the Joint Area of Operations, and lack of 
command and control coordination and poor communications 
between Title 10 and Title 32 forces were significant issues.''
    It goes on to say that the disconnect between the Guard and 
the active duty command and control structures resulted in some 
duplication of efforts. It gives as an example that the 82nd 
Airborne moved into a sector that was already being patrolled 
by two National Guard units. In addition, our investigation has 
indicated that there was duplication in helicopter missions, 
with two helicopters sent on the same rescue missions, which 
arguably delays the rescue of other victims.
    From your perspective, and I'm going to start first with 
you, General, what should be done in the future to avoid the 
command and control difficulties that the Guard's after-action 
report very candidly says were problems during Katrina?
    General Blum. I'll be honest with you, Chairman. I do not 
professionally or personally subscribe to what I'm reading on 
this chart. And I doubt that was rendered by the National Guard 
Bureau. It certainly was not rendered by me. It does not 
reflect my professional feelings of what occurred during that 
time.
    Was there perhaps a duplication of effort? It's certainly 
possible. What you described, the 82nd being assigned to a 
sector where people were already performing missions, you could 
call that duplication. I could call that an expansion of 
capabilities because the 82nd could assume a role and a mission 
that they could perform very well, and that would free up the 
troops that were doing other things to do things, frankly, that 
they could do without the limitation of Posse Comitatus. So it 
actually may have been a very good thing.
    When I was asked about the ordering of Federal troops into 
the area, there was never one time that General Blum or the 
National Guard Bureau pushed back. They were welcomed. I had my 
faucet turned on full volume. I was doing everything the 
National Guard could possibly do through EMAC and the 
affected--and the donor States that sent their personnel and 
equipment and expertise.
    And having someone at the Federal level opening up a second 
spigot, so to speak, to allow more capability to flow in faster 
and expand our ability to render positive effects, reduce 
suffering, save people, and restore order quicker were 
welcomed. At no time did I see a difficulty with the command 
and control structures that were in place. It was all about 
unity of effort in my mind. Unity of command does not guarantee 
unity of effort. Unity of effort guarantees success, and I 
think we achieved that.
    So I don't really know who the author of this is.
    Chairman Collins. Let me show you the report because it is 
a report dated December 21, 2005, ``National Guard After-Action 
Review, Hurricane Response, September 2005.'' And it has the 
seal, Departments of the Army, and the Air Force and the 
National Guard Bureau.
    It's a very extensive report, which we've read thoroughly, 
and this is one of the key observations. In fact, it's the very 
first observation that is in the summary. So I'm surprised that 
you're not familiar with it or disagree with it.
    General Blum. I, too, am surprised. I'm not familiar with 
it. But I stand on my sworn statement. And what I said now, 
today, many months after the hurricane is exactly what I felt 
during the time the hurricane was occurring and the response 
was occurring.
    I think what you're trying to get is how I really feel 
about it, and I just stated that.
    Chairman Collins. It is.
    Admiral Keating, what's your reaction to the command and 
control issues? Did you see difficulties or confusion from your 
perspective at Northern Command?
    Admiral Keating. From our headquarters, Madam Chairman--the 
last sentence on the slide, there were Title 10 forces and 
Title 32, previous to that, State active duty forces deployed 
to the area. And if that results--and there was extensive 
coordination between the National Guard Bureau and Generals 
Cross and Landreneau through Russ Honore and Task Force Katrina 
up through our headquarters to the Department of Defense. We 
were in, at least once a day, a teleconference with the 
Secretary of Defense. Steve Blum and I were participants, as 
was Secretary McHale.
    So there may have been tactical disconnects between troops 
on the ground in an area where communications were a challenge, 
and there may have been duplication of effort. Your point that 
if there are two helicopters going to spot X, that may mean no 
one goes to spot Y.
    I don't think that happened. I think because of the volume 
of response that there were command and control challenges, but 
there was extensive coordination. And there's a difference in 
that Russ Honore couldn't tell elements of the Emergency 
Management Assistance Compact assembled Guard forces what to 
do, nor could they tell General Honore what to do. But I know, 
for a fact, that there was frequent, near-continuous 
communication and coordination.
    So the bottom line there, I'd say, I don't disagree that 
there had been times when Title 10 and Title 32 forces may not 
have been crystal clear on what they were doing. But there was 
extensive coordination. And I don't know that I would say it 
was a duplication of effort. It was a harmony of effort, and it 
was a comprehensive lay-down of those capabilities that were 
resident in uniformed forces, whether Guard or active.
    Long answer to a short question. I don't think it was a 
critical factor in the execution of our mission following 
Katrina.
    Chairman Collins. Secretary McHale, in the four previous 
instances in which the National Guard and active duty forces 
were together, used on domestic missions, a single dual-hatted 
commander was designated as the commander for both the National 
Guard and the active duty military forces, with a dual 
reporting line up the chain of command and to the State's 
governor.
    Well, let me ask you the question: Should there have been a 
single commander, a dual-hatted officer, in the case of Katrina 
to coordinate the active duty and the Guard?
    Secretary McHale. No. We, in the military, in looking at 
the goal of maximum operational effectiveness, routinely try to 
achieve at least two things: Unity of command and unity of 
effort.
    The Constitution of the United States was not written to 
support maximum effectiveness in military operations. The 
Constitution was written to establish a Federal system of 
government under that document, and that means that inevitably, 
at the beginning of a domestic military mission, the governors, 
pursuant to their authorities under the Constitution, will have 
command and control of their State National Guard forces. The 
President and the Secretary of Defense, under Article II of the 
Constitution, will command the Federal forces.
    So we start any domestic mission with a breach in that 
principle of unity of command. The way in which that breach is 
addressed in a crisis circumstance is through the 
federalization of the Guard, often combined with an invocation 
by the President of the Insurrection Act. That is a very 
significant decision, particularly when exercised in the face 
of opposition by the affected governor.
    In this case, recognizing that we started with a division 
in the command structure, with the governor in command of 
National Guard forces and the Secretary of Defense in command 
of Title 10 forces, though we could not immediately achieve, 
unless we invoked the Insurrection Act and the federalization 
of the Guard, unity of command, we could achieve unity of 
effort. And that means that instead of a command relationship 
over all those forces, you respect the normal Constitutional 
paradigm and insist upon close coordination among those forces.
    And what happened was throughout the course of the 
execution of the mission, the Secretary of Defense was in 
routine daily contact with General Honore and Admiral Keating 
to ask General Honore how that coordinating relationship was 
working with the National Guard. And General Honore, as he will 
tell you, gave repeated assurances that the relationship was 
working well, that he and General Landreneau had a good 
relationship, and although there was not technical unity of 
command, there was unity of effort.
    If that relationship had broken down, the Secretary of 
Defense would have known about it immediately and an 
appropriate recommendation could have been made to the 
President. But in light of the assurances that the relationship 
was working, achieving unity of command, one person in charge, 
stripping the governor involuntarily of her command and 
control, was not the right course of action.
    Chairman Collins. Are you aware that the White House 
proposed a dual-hatted officer to achieve unity of command to 
Governor Blanco?
    Secretary McHale. Senator, I'm not only aware of it, I 
recommended that to the Secretary of Defense. He reviewed that 
recommendation, concurred in that recommendation, and took it 
to the President for the President's consideration.
    Chairman Collins. Just to clarify your previous response, 
then, I'd asked you whether you thought there should have been 
a dual-hatted officer; you said no.
    Secretary McHale. In retrospect, that's correct.
    Chairman Collins. OK.
    Secretary McHale. At the time that we were looking at that 
goal of unity of command, and in light of the fact that on four 
previous occasions during the previous 12 to 18 months we had 
in fact used that procedure, a dual-hatted command, a National 
Guard officer in command of both National Guard forces and 
active duty forces--we used that paradigm at the G8 Summit. We 
used it at the Democratic and Republican conventions. We used 
it for Operation Winter Freeze along the Canadian border. That 
was a reasonable concept to consider.
    And it was presented to the governor for her consideration. 
That would not have stripped her of her command. That would 
have brought into the charge of a single officer unified 
command under both the President and the governor. Governor 
Blanco rejected that proposal, and we went forward with the 
coordinating system that I described a few minutes ago. And, in 
fact, that worked well.
    So I believe it was prudent to consider a dual-hatted 
command. I frankly have reservations now whether that approach 
should be used in a crisis environment. And based on the 
positive relationship between Major General Landreneau and 
General Honore, in retrospect I'm glad that we did not invoke 
either a dual-hatted command or the statutory authority under 
the Insurrection Act.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Let me say to my friend Secretary McHale in response to 
your opening statement, which I appreciate, that, again, when 
the military swung into action here, National Guard and Title 
10 active military, the contribution made was extraordinary and 
just critical.
    And my concern, as I look back at this, because in a 
catastrophe of this type time is obviously of the essence, is 
that the majority of the assets didn't come in until the week 
after landfall. The National Guard was obviously first and 
mobilized by Wednesday. The active duty military didn't fully 
come in until the following Saturday.
    So I think the question we would ask, really thinking about 
the next catastrophe, is: Do we want to be in a position to 
have both the National Guard and active duty military move more 
quickly with the extraordinary resources they have? It's not an 
easy question. It's a little easier in hindsight.
    I will tell you that in a totally separate field, the Coast 
Guard--because this is their work, normally they saw the 
weather forecasts. Beginning Friday before the Monday of 
landfall, they began to preposition assets in the region and 
personnel so that when it hit on Monday morning, they were 
ready to be out there Monday afternoon.
    And I think that's the question we've all got to ask 
ourselves when we see really a big disaster coming, whether we 
want also the Guard and/or the active duty military to be ready 
to swing into action.
    I want to go back and ask a couple of questions about 
planning. Admiral Keating, as the Chairman said, you are the 
second Commander of Northern Command, which was established in 
2002 as the combatant command responsible for military 
operations in the continental United States, obviously part of 
a reaction to September 11, 2001. As part of that, NORTHCOM was 
assigned--was designated as the combatant commander responsible 
for all defense support to civil authority, so-called DSCA 
missions within the continental United States.
    In addition, in January 2005, the Federal Government 
essentially updates, broadens, deepens what was the Federal 
Response Plan into the National Response Plan. We've talked 
here about the emergency support functions. DOD is given a 
backup role on--as far as I can see--every ESF there.
    As you look back, do you think that the Department of 
Defense, specifically NORTHCOM, from 2002 did enough planning 
to be ready to quickly implement or activate its responsibility 
under the defense support to civil authorities ideal?
    Admiral Keating. Senator, I do think that we were--we have 
on the shelf, and had on the shelf pre-Katrina, our CONPLAN 
2501. That's a concept plan. It is a comprehensive approach to 
providing defense support to civil authorities, as you say, 
across--and what areas of consequence management would we, as 
the DOD's local commander, be required to provide to support 
civil authorities. That is a plan ready to be approved by the 
Secretary, and it is on our shelf.
    Senator Lieberman. And sir, to interrupt very briefly----
    Admiral Keating. Sure.
    Senator Lieberman [continuing]. That would cover both 
natural disasters and a terrorist attack?
    Admiral Keating. It is--yes to the natural disasters. And 
we have a separate plan, CONPLAN 0500, for chemical, 
biological, radiological, nuclear, and high yield explosives. 
So that family of plans we think covers the span of 
consequences to which we would be directed to reply. So we have 
both plans on the shelf.
    The challenge, Senator, I think, is exercising those plans.
    Senator Lieberman. Literally to exercise in advance of the 
catastrophe, you mean?
    Admiral Keating. Precisely. To duplicate the total 
elimination of infrastructure, as witnessed in Southern 
Mississippi actually more dramatically than in New Orleans----
    Senator Lieberman. Right.
    Admiral Keating [continuing]. We simply cannot replicate 
that in the field. We have done tabletop exercises. We've done 
computer war games at several war colleges. We work with our 
friends in the commercial industry as well. Coors Brewery, as a 
matter of fact, runs significant exercises here right in--close 
to us.
    So we have the plans on the shelf. The challenge is 
exercising those plans in the field with sufficient fidelity to 
duplicate--to provide sufficient challenge to us to execute 
those plans and to consider the second, third, and fourth order 
consequences of a significant disaster.
    Senator Lieberman. Yes. So in that sense, you wish you had 
been able to exercise those plans more before Katrina hit?
    Admiral Keating. Yes, sir. I do.
    Senator Lieberman. And Secretary McHale, I see you 
agreeing. Is anything being done to try to create--
understanding the difficulties you've described, to create the 
opportunities to exercise those plans? Secretary McHale, you 
want to get into this?
    Secretary McHale. Yes, sir. The observation made by the 
Admiral is correct. And I think everyone in the Department of 
Defense, both in the Pentagon and out in the operating forces, 
would welcome the opportunity for more frequent, more 
challenging, more realistic catastrophic scenarios to test our 
capability to respond.
    And in fact, that kind of catastrophic series of scenarios 
forming the basis for a coordinated series of war games was 
underway prior to Katrina. We had developed a proposal that was 
then underway--frankly, Katrina caused part of it to be 
postponed--to deal with catastrophic events, not major 
disasters. We have 50 to 60 major disasters a year, 
presidentially declared. We're talking about a level of 
destruction that equaled or exceeded the kind of loss that we 
experienced real world in terms of the aftermath of Katrina.
    And so, not only can I tell you do we believe that should 
take place, I can reassure you it was underway prior to 
Katrina. And we're talking about things such as multiple 
nuclear explosions, multiple RDDs----
    Senator Lieberman. Right. Worst case scenarios.
    Admiral Keating [continuing]. Category 5 storms over major 
American cities.
    Senator Lieberman. But we live in that kind of reality 
today.
    Admiral Keating. Yes, sir.
    Senator Lieberman. So those are the worst case, but it's 
important to exercise for them.
    Our own review, as we go over what the Pentagon did before 
landfall, does include, Admiral, NORTHCOM deploying Defense 
Coordinating Officers to the region. Correct? Do you remember 
what day that was done on?
    Admiral Keating. We had Defense Coordinating Officers in 
place, according to our timeline, Senator, on Friday, August 
26.
    Senator Lieberman. That sounds right to me.
    Admiral Keating. Three days before landfall.
    Senator Lieberman. Here's an interesting exchange I want to 
ask you about. I mentioned that General Honore, at First Army 
Command on Sunday, August 28, was agitated by what he was 
seeing, and sends the request, which is Exhibit B.\1\ He sent 
it to NORTHCOM and to the Joint Staff asking that assets be 
identified that in his experience with hurricanes would be 
required within the first 24 or 48 hours--helicopters, boats, 
medical capabilities, communications equipment.
---------------------------------------------------------------------------
    \1\ Exhibit B appears in the Appendix on page 242.
---------------------------------------------------------------------------
    He sends the list, and he receives an e-mail response from 
General Rowe at the Pentagon----
    Admiral Keating. Senator, General Rowe is our----
    Senator Lieberman. I'm sorry.
    Admiral Keating. Yes, sir--was our operations officer.
    Senator Lieberman. Correct. He gets a response from him 
that they're working on it. Then on August 29, which is the day 
of the landfall, he gets another response from General Rowe. I 
can't resist reading the first two words from Rowe to Honore. 
``Sir, hooah.'' Right?
    Admiral Keating. That's a technical term, sir.
    Senator Lieberman. Yes. I'm familiar with it. ``Joint 
Forces Command reviewing joint solutions from force 
providers,'' which had been provided at that time, possible--
but in the meantime, the storm has already hit. And then he 
says, ``Somewhat hamstrung by JDOMS desire to wait for RFAs.'' 
And the translation being hamstrung, I presume, because of a 
decision to wait for the request, the RFAs, from FEMA to act.
    In fact, our indication is that FEMA finally did ask--had 
asked on Sunday, August 28, for some helicopters. They were 
approved on August 29 and did not arrive until August 30. I'm 
glad that they arrived on August 30, but obviously, if they had 
arrived on August 29 and been able to go out in the afternoon 
or whenever the storm had subsided, it would have been a lot 
better situation.
    How do you respond to General Rowe's statement that he was 
hamstrung by this waiting, this decision to wait for FEMA to 
request? And I suppose in retrospect, Secretary McHale, Admiral 
Keating, should we next time be in a position where you don't 
wait, where you decide--you've got General Honore seeing this 
coming. He's made a request. And in a sense, like the Coast 
Guard, because that's the way they operate because this is 
their normal business, you just get ready to go and you go?
    Secretary McHale. Sir, we didn't wait. And the comment that 
you quote from JDOMS was not reflective of either how the 
leadership at the Pentagon viewed the issue or how we 
operationally responded. We were a whole lot closer to the 
mindset of General Honore and General Rowe. And in fact--I 
don't know if this is the appropriate time--we can go back a 
week before landfall, and day by day, with a sense of urgency, 
bring to your attention in a manner that is absolutely 
documented the proactive preparation that we put in place in 
advance of landfall on August 29.
    You mentioned the RFAs that had come in. The simple fact is 
every RFA that had come in at that point was promptly approved, 
vocally, I believe, and we deployed those assets--including 
helicopters, most especially helicopters, for search and 
rescue--as fast as was humanly possible under the 
circumstances.
    Senator Lieberman. Well, that's my question in part. 
Because let's say the two helicopters had been--I'm asking the 
question; I assume they hadn't been prepositioned close by--
then they would have--if asked for by FEMA on Sunday, August 
28, presumably they wouldn't have had to wait until Tuesday 
night, August 30, until those helicopters arrived, and they 
were desperately needed on Monday afternoon and Tuesday.
    Secretary McHale. They were desperately needed. We moved as 
quickly as was humanly possible. And as we look at your very 
legitimate question, the underlying point is: What is the 
expectation--certainly not reflected in the current National 
Response Plan--in terms of the timeline of DOD's response in 
support of another lead Federal agency?
    When you can get helicopters there within 24 to 48 hours of 
the event, that makes you virtually a first responder. That's 
the standard we met. If that isn't fast enough, if we expect to 
have helicopters in significant numbers there within hours 
after the event, that is going to require a change in the 
national paradigm in terms of what we expect of the Department 
of Defense as a secondary mission often in conflict with, in 
terms of resources, our primary mission to fight and win wars 
overseas.
    So if the expectation is going to be--it wasn't on August 
29----
    Senator Lieberman. I agree with you.
    Secretary McHale [continuing]. But if the expectation is 
going to be a 24-hour or less response, we're going to have to 
train and equip and assign missions to the Department of 
Defense according to a different paradigm. Based on the 
paradigm we had in place, our response was very fast.
    Senator Lieberman. I think you've raised very important 
points, and that's why I think we're all looking back. Do we 
wish that you had--that essentially the paradigm had been 
different, the National Response Plan had been different, and 
that the Pentagon had been operating under a plan that would 
have required you in this circumstance to preposition assets as 
the storm was approaching and then be ready to move quickly?
    You moved very quickly when asked. Obviously, the full 
force of the----
    Secretary McHale. Sir, we did preposition assets. And that, 
as I say to my friend and a former attorney general, I hate to 
challenge your reliance on a fact not in evidence. But we did 
preposition assets, and as early as August 23, a week before 
landfall, I turned to an Air Force colonel, who is seated 
behind me, Rich Chavez, and when I found out that there was a 
tropical depression 400 miles off the coast of Florida a week 
before landfall in Louisiana, I instructed Colonel Chavez to do 
a complete inventory of DOD assets that might be available to 
assist FEMA in this case.
    And I instructed him to look to the force package we had 
used the year before for the four hurricanes in Florida to 
assure that those assets would be in place. Pursuant to that 
guidance, Colonel Chavez did that on August 23, a week before 
landfall, before Katrina even had a name. And we had that 
complete inventory compiled.
    We were extremely proactive in anticipating well in advance 
of landfall the kinds of capabilities we would have to employ.
    Senator Lieberman. OK. My time is up. Still, the fact is 
the great bulk of the Federal forces obviously didn't move in 
until the Saturday afterward. But the helicopters, the two 
helicopters that were requested, and the fact that they arrived 
30 hours after--well, they arrived actually 2 days after 
requested, and those were 2 critical days. We can come back to 
this.
    Secretary McHale. And I would welcome that, sir, because I 
think that is the issue. And we ought not to draw a 
distinction--because we don't in the Pentagon or in our 
strategy for homeland defense and civil support--between our 
active forces and our reserve component forces. We believe in a 
total force.
    And the force flow, both Guard and active duty, was huge 
during this period of time. And it wasn't by accident that the 
Guard forces got there in large numbers ahead of the Title 10 
forces, based on the strategy we published in June that I 
believe was validated by Katrina. For domestic missions, it 
makes a great deal of sense to rely primarily on the National 
Guard, their capabilities and speed of response, and then to 
augment our Title 10 forces in support of the Guard as 
required.
    So it wasn't delay, it was design that moved a huge number 
of Guard forces in initially, followed by very substantial 
forces from the active component.
    Senator Lieberman. Thank you.
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman. Thank you to each 
of our witnesses, not just for being here today, but for your 
service to this Nation. We're grateful for that.
    Admiral, what was your position on whether the Guard forces 
that flowed into Louisiana and Mississippi were sufficient to 
meet the States' needs?
    Admiral Keating. Throughout the early days on Tuesday, 
Wednesday, into Thursday, Senator, we were confident that the 
numbers flowing were appropriate and adequate. And from our 
headquarters, Senator and Madam Chairman, and this kind of goes 
to Senator Lieberman's point, it's not so important to us as to 
numbers. It's capabilities. And we end up with 22,000 or so--
22,500 for active forces.
    The number is of little consequence to us. It's the 
capability resident in the forces deploying. And so if it's a 
National Guardsman from Connecticut, that's great. If it's an 
active duty force out of the 82nd Airborne, that's great.
    Senator Levin. It was your judgment at that time through 
Thursday that the forces were adequate, the National Guard?
    Admiral Keating. The flow was--the forces and the 
capabilities----
    Senator Levin. Including their capabilities. But the 
National Guard forces were adequate for the job.
    Admiral, there's an Exhibit C\1\--there was a message that 
came from General Rowe, who's your J-3----
---------------------------------------------------------------------------
    \1\ Exhibit C appears in the Appendix on page 255.
---------------------------------------------------------------------------
    Admiral Keating. Correct.
    Senator Levin [continuing]. To General Honore, James 
Hickey, who was with General Honore, and that's Colonel Hickey. 
And here's what the message said. It said that ``the governor 
has asked that Federal troops pick up the rest of the tasks 
being uncovered by the Guard.'' There was a desire to 
concentrate the Guardsmen in New Orleans for law enforcement 
and security tasks, but the governor specifically asked for 
Federal troops to pick up the rest of the tasks.
    Now, that message was Wednesday, August 31. And the 
response that came back was as follows, from General Honore to 
you, essentially, which is, ``Push back. I will see the 
Governor today.'' So what General Honore--and we'll be able to 
talk to him later, except I won't be able to be here, so we'll 
need your view on this for my purposes--General Honore was 
telling you at that point to push back on that request. Is that 
fair?
    Admiral Keating. Yes, sir. It is fair.
    Senator Levin. All right. Then, at the same time that was 
going on, General Honore sent a message to General Amos at the 
Marines, with a copy to you, saying to the Marine commander, 
the Marine general, ``Hello, brother. Get here as fast as you 
can.'' And a copy of that came to you.
    What did you make of that, when you received that message 
at the same time you were--I guess literally within an hour of 
each other, you were getting two messages from General Honore, 
one saying, push back against the governor's request for 
Federal troops, and then you get a copy of a message from him 
to General Amos at the Marines saying, ``Brother, get here as 
fast as you can''? What did you make of that?
    Admiral Keating. I talked to Russel about it that afternoon 
or the next morning, Senator, and I don't remember precisely. 
As I recall, the issue became for the specific application of 
those forces. We had missions that we were looking to do in 
Mississippi that were completely separate and distinct from, 
obviously, the missions in New Orleans, writ small, and 
Louisiana, writ large.
     My understanding at the time was the National Guard forces 
were principally going to New Orleans, and a good number of 
them, at that time 4,500 or so, were military police, separate 
and distinct from the forces that Russ might need throughout 
the rest of Louisiana and in Mississippi. So different 
requirements, is how I interpreted it, and as we discussed, as 
I recall the conversation the next morning. Different 
requirements.
    Senator Levin. So that it was your understanding from 
General Honore when you talked to him that this was not 
inconsistent with his saying to you, push back against the 
governor for Federal troops?
    Admiral Keating. It was not inconsistent sir.
    Secretary McHale. Senator, what was the date on that, if I 
may ask, sir?
    Admiral Keating. Wednesday, I think.
    Senator Levin. Both were Wednesday, August 31.
    Secretary McHale. Yes, sir.
    Senator Levin. The first message from General Honore was 
Thursday, September 1, at 11:46 a.m. The other message on 
Thursday, September 1, was at 1:46 p.m.
    Secretary McHale. Sir, I think the explanation is that on 
Wednesday of that week, General Amos was in command of both 
aviation and ground forces in the Marine Corps. The Marine 
Corps forces that were then headed toward the AOR were aviation 
assets, principally helicopters and some medical capabilities. 
And they were desperately needed, and they had to get to the 
AOR as quickly as possible.
    Marine Corps ground forces weren't deployed until the 
following weekend. So when we think of Marine Corps assets, we 
should not assume that we're talking about infantry. The assets 
were moving on ship, and they were primarily helicopters and 
medical personnel, desperately needed.
    Senator Levin. Those were not the Federal troops that the 
governor was asking for?
    Secretary McHale. That's correct. and that's why it is 
consistent to say, we don't need light infantry, for instance, 
out of the 2nd Marine Division under General Amos, but we do 
need Marine Corps helicopters and medical capabilities out of 
Marine Corps aviation, also under General Amos.
    Senator Levin. Now, when General Honore told you, Admiral, 
that you should push back against the governor's request, it 
was also stated at that time, I believe, that the Office of the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff agree with that. Is that correct?
    Admiral Keating. As I recall, that's correct, sir.
    Senator Levin. All right. Now, on Friday, another message 
was sent from General Honore to General Amos. And that was an 
expletive ``hitting the fan. Get here as fast as you can.''
    Was that something which also referred to different assets 
than the governor wanted, as far as you can--when you got a 
copy of that message?
    Admiral Keating. Yes, sir.
    Senator Levin. OK. Now, I want to get to this unity of 
command issue because I must say, Secretary, I have trouble 
with your explanation to the Chairman's question.
    At the time that you were recommending to the governor that 
there be unity of command, you believe that was the better 
course. Is that correct? But subsequently, or at some later 
point, you felt that it was a mistake to make that 
recommendation to the President. Is that a fair summary?
    Secretary McHale. I think that's a fair summary. During 
that week sir, at that very point in time, anyone who was 
watching TV saw that the situation of civil disorder was bad 
and getting worse in New Orleans. There was a concern with 
regard to how we might achieve unity of effort, and therefore 
we thought about ways in which we might achieve unity of 
command.
    Having used the dual-hatted approach four times 
successfully in the previous year, year and a half, we 
certainly looked at that as an option. And I recommended it to 
the Secretary, and he brought it to the President's attention.
    Senator Levin. Isn't that ordinarily the better course of 
action, to have unity of command?
    Secretary McHale. Yes, sir. It is.
    Senator Levin. Either in the Federal or the State officer?
    Secretary McHale. From the standpoint of operational 
effectiveness, yes, sir, that's true. The challenge here is 
that we've got a Constitution that has been drawn in a way that 
it conflicts with unity of command because it gives command 
authority both to the governor and to the President.
    Senator Levin. But the Constitution is consistent with 
unity of command where there's an agreement on it. Is that not 
correct?
    Secretary McHale. Yes, sir, and that's really where we were 
coming from. We sought the governor's agreement. We presented 
to her a concept that would have preserved her command 
authority but would have unified that command in the hands of a 
single officer who also would have been responsible to the 
President. She then rejected it.
    Senator Levin. And that's ordinarily the better course of 
action, is that there be unity of command. And if she had 
agreed to that, there would have been unity of command?
    Secretary McHale. Well, sir, that's what brought us to that 
recommendation. But in retrospect----
    Senator Levin. OK. I'm running out of time.
    Secretary McHale. In retrospect, the disagreement at the 
level of chief executives has led me to conclude that in a 
crisis environment, unlike preplanned events, in a crisis 
environment dual-hatting is probably not an effective approach.
    Senator Levin. In general?
    Secretary McHale. In general, in a crisis environment. I 
anticipate that in a non-crisis environment, a national special 
security event, it remains a very viable alternative.
    Senator Levin. All right. I've got to disagree with you on 
this. It seems to me in a crisis environment, providing there's 
planning in advance, it may be the most essential place for 
unity of command. But that's just my opinion.
    Secretary McHale. Well, that's not what I said, sir. Unity 
of command can be achieved, but not through dual-hatting 
because a dual-hatted command falls apart if you have a 
difference of opinion between the two executives. And in a 
crisis environment, I think it's almost inevitable that a 
President and a governor will have differences of opinion. To 
put an officer in the crossfire between the two of them, I 
think, is untenable.
    Senator Levin. Doesn't dual-hatting give unity of command 
at least in one person?
    Secretary McHale. Yes, sir. Who then is responsible to two 
chief executives.
    Senator Levin. I understand. But there's one person who has 
that unity.
    Who were the Marines, when they were deployed, commanded 
by?
    Secretary McHale. Are you talking about the ground forces, 
sir?
    Senator Levin. Yes.
    Secretary McHale. The ground forces were deployed by 
Presidential order on Saturday.
    Senator Levin. But hadn't they previously been deployed by 
the Marine commander without that Presidential order?
    Secretary McHale. I'm not aware of that. It was First 
Battalion----
    Senator Levin. Were you aware of that, Admiral?
    Admiral Keating. The aviation assets. Yes. There were 
Marine helicopters in the AOR. Yes, sir.
    Senator Levin. Right. That were under whose command when 
they were deployed?
    Admiral Keating. Mine.
    Senator Levin. But there was no Presidential order for that 
at that time?
    Admiral Keating. There was not. We were acting on verbal 
orders authorized by then-Acting Secretary England.
    Senator Levin. OK. But there had been a verbal order prior 
to your order?
    Admiral Keating. You bet. Yes, sir.
    Senator Levin. Got you.
    Secretary McHale. Sir, what we had done was we had chopped 
the aviation assets.
    Senator Levin. OK. Final question to General Blum. Your 
answer on this assessment, this National Guard assessment, to 
the Chairman is striking that you were not familiar with this 
until today because it really is a very--it gives an overview 
about the command and control difficulties.
    I'm just curious if you could for the record----
    General Blum. Yes, sir.
    Senator Levin [continuing]. You won't know today because 
you've never seen this before--let us know who prepared this 
Guard Bureau report.
    General Blum. Well, certainly, sir, I could tell you what 
it is. It's an after-action report. It's a compilation of 
observations by people who viewed the situation, and probably 
with somebody in my Joint Operations Center, one of my watch 
officers or someone like that, who made a--from their point of 
view, that's what they saw.
    They didn't have the total perspective that I did. And it's 
probably an accurate and valid validation that they would come 
and make sworn testimony that's the way they saw it.
    Senator Levin. I got you.
    General Blum. I don't happen to subscribe to that because I 
saw the whole--the big picture.
    The other point is, to help you a little bit, I think, with 
your dilemma, sir, on asking Admiral Keating and the Secretary 
about the Federal forces, if I could refer you to this chart 
over here.\1\ On the day in question, we had over 10,000, 
growing to 20,000, soldiers that were on the ground and closing 
on Louisiana and Mississippi.
---------------------------------------------------------------------------
    \1\ National Guard Chart appears in the Appendix on page 82.
---------------------------------------------------------------------------
    And I was in communications through telephone with General 
Honore on a pretty frequent basis, as well as Northern Command, 
as well as Secretary McHale, as well as General Landreneau in 
Louisiana and Hack Cross in Mississippi. And they were telling 
me that the flow of the National Guard forces that they 
requested were arriving at the rate with the right capabilities 
to do the jobs that they wanted done and were satisfied that 
what we had promised Governor Blanco and Governor Barbour were 
in fact arriving in time to meet their requirements.
    So this is in the early stages of the response. And 
remember, the National Guard, both Army and Air Guard, are DOD 
assets that we share with the people who are in charge. There 
is unity of command. That's called a governor. The governor is 
the Commander in Chief. All of this military support is to 
civil authorities. That civilian authority is the governor in 
the State.
    There were five States affected, not just Louisiana. Texas 
saw it the same. Governor Perry saw it the same way. Governor 
Blanco saw it the same way. Governor Barbour saw it the same 
way in Mississippi. Governor Riley saw it the same way in 
Alabama. And Governor Bush saw it the same way in Florida.
    They see it as they are the elected civilian leader, and 
they are in charge of the event. All of the military forces 
that come into that State are coming there to support them, 
whether they're sent by the President or they're sent by their 
other governors through EMAC.
    When they show up into the State, if they're in the 
National Guard, they work for the Adjutant General of the 
State. All the governors agree to that. If Federal forces come 
into the State, they respond to a Federal chain of command, but 
the job they're doing is in support of those elected governors.
    So there really is--now, unity of command is----
    Senator Levin. General, my time is way overdue.
    General Blum. All right, sir.
    Senator Levin. I think we understand that.
    General Blum. Trying to be helpful.
    Senator Levin. The question is whether those Federal forces 
should have come earlier at the request of the governor or 
whether there should have been a push back at that time. And I 
think if you had to do it all over again, they would have come 
in earlier rather than later. I think that's the bottom line in 
terms of that push back comment.
    Secretary McHale. Sir, in all fairness, I'm not sure that, 
in terms of the expectations of the NRP and the very proactive 
planning of the Department of Defense that went well beyond 
waiting for requests for assistance, to move up the timeline of 
active duty forces much more quickly than we did will require a 
very fundamental review of what we expect of the Department of 
Defense domestically if we are to be first responders.
    And in retrospect, we wish in this case someone had been a 
more effective first responder. But if we are to be the first 
responders, you have to change the character of the training 
and the equipment, as well as the legal authorities of the 
Department of Defense.
    Senator Levin. That's clearly true. This isn't first 
responder. This is Wednesday. This isn't Saturday or Sunday or 
Monday or Tuesday. That is a Wednesday request.
    Secretary McHale. We had forces flowing before landfall, 
and it takes a while to move ships.
    Senator Levin. Thank you. Thank you all again for your 
service.
    General Blum. Sir.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. Welcome 
to our panels this morning.
    Admiral Keating, the DOD strategy for homeland defense and 
civil support gives NORTHCOM responsibility for all States 
except my own state of Hawaii and U.S. Territories, 
possessions, and freely associated States in the Pacific. These 
areas fall under the responsibility of the U.S. Pacific Command 
for all homeland defense and civil support efforts.
    While NORTHCOM's overall mission is designed around the 
homeland defense and civil support mission areas, PACCOM's 
primary mission is not homeland defense, in part because PACCOM 
has significant war fighting responsibility for over 105 
million square acres of the world. As a former director of the 
Joint Staff, you have intimate knowledge of all the combatant 
command capabilities.
    Will you please describe how you are working with PACCOM to 
ensure that the Pacific Command is capable of responding to a 
natural disaster in Hawaii and the Pacific Territories, should 
the need arise? For example, have you conducted any joint 
disaster recovery meetings with PACCOM? This has been a long-
standing question, and there has not been a written answer. So 
I'm asking for your advice on this.
    Admiral Keating. Yes, sir. And thanks for the question, 
Senator. We have as recently as October conducted an extensive 
exercise in the field, in the water and in the skies and on 
land around Alaska. And it involves forces that were 
operationally controlled by the Pacific Command and tactically 
controlled in the course of the exercise by Northern Command.
    Admiral Fallon is a good friend of mine, as you might 
suspect. We work with his command on the formulation of these 
two plans that I discussed earlier, CONPLAN 2501 and 0500. They 
were a full party to the development of those plans. Their 
plans reflect the work that we have done with the Department of 
Homeland Security and other agencies.
    So there is extensive cooperation and coordination. We have 
a Pacific Command officer full-time in our headquarters. So I'm 
satisfied, and I can report to you that we work closely with 
Pacific Command in the formulation of our plans and in the 
exercise of the plans as recently as October.
    Senator Akaka. Yes. And this has been a concern in Hawaii--
--
    Admiral Keating. Yes, sir.
    Senator Akaka [continuing]. As to who do we look to for any 
first response help.
    General Blum, did preexisting relationships between senior 
military officials enhance DOD's ability to achieve what we're 
talking about, unity of effort? Do you think that preexisting 
relationships did achieve that?
    General Blum. Yes, sir, I do. In fact, without those 
relationships, the difficult tasks that were achieved between 
the Department of Defense, the Joint Staff, U.S. Northern 
Command, the National Guard, Russ Honore's task force, and the 
National Guard Adjutants General in the five States affected 
would have been impossible.
    So I have to say that the previously existing relationships 
were a key to the successful response that DOD played for 
Hurricanes Katrina, Wilma, and Rita, that shortly came after. 
The answer is yes, sir.
    Senator Akaka. Yes. Would the unity of effort concept work 
if such relationships did not exist?
    General Blum. They would be extremely more difficult to 
achieve without those relationships.
    Senator Akaka. Secretary McHale, would you comment on that?
    Secretary McHale. Sir, I agree completely with General 
Blum. It is vitally important that we establish those kinds of 
relationships. There's only so much you can do on paper. The 
relationships between commanders, between human beings, between 
departments, in face-to-face confidence built on prior 
relationships, that is of enormous value in a crisis 
environment to cut through the paperwork and achieve 
decisionmaking and operational deployment in an effective 
manner.
    This is not about--the strategy you cited was written in 
our office. We have an expression in the military: As soon as 
you cross the line of departure, you can forget about the 
paperwork. There are operational requirements. A strategy is 
helpful, but those peer-to-peer relationships of trust and 
confidence make it happen.
    Senator Akaka. Well, thank you so much for that.
    Secretary McHale, a memo issued by former Deputy Secretary 
of Defense Paul Wolfowitz in March 2003 giving guidance on the 
implementation of the Office of the Assistant Secretary of 
Defense for Homeland Defense states, ``To focus the use of 
resources in preventing and responding to crisis, the Assistant 
Secretary of Homeland Defense will serve as the DOD domestic 
crisis manager.''
    Will you please explain what authority you have to deploy 
DOD resources during a domestic crisis?
    Secretary McHale. Sir, I have no authority to deploy 
resources except the authority that is granted narrowly to me 
by the Secretary of Defense in a given circumstance. Command 
and control going back to Goldwater-Nichols, 1986 in the 
Congress, establishes a chain of command that goes from the 
President to the Secretary of Defense to the combatant 
commander, and the deployment of forces falls squarely within 
the responsibilities of that chain of command. So only someone 
who is vested with command authority--I do not have command 
authority--can deploy forces.
    Now, during the course of Hurricane Katrina and on many 
other occasions in the last 3 years, I have had management 
responsibilities, not command responsibilities. And what that 
means is I try to gather as much information as I can, I bring 
it promptly to the attention of the Secretary of Defense, I 
offer a recommendation to the Secretary, and then he makes the 
decision.
    The only caveat to that is during Katrina, probably a third 
of the way into the deployment, the Secretary of Defense, under 
very narrowly defined circumstances, delegated to me 
decisionmaking authority. And in his name, I did approve the 
deployment of forces under circumstances where it was difficult 
to get the Secretary's direct approval.
    The purpose was to speed up that decisionmaking process. 
And whenever I made a limited number of decisions under that 
circumstance, I promptly advised the Secretary of Defense of 
the fact that I had made such decisions.
    Senator Akaka. Secretary, as the DOD domestic crisis 
manager, are you the point person with whom all other Federal 
agencies and State and local officials interface during a 
domestic crisis?
    Secretary McHale. The answer to that is yes, sir. But it's 
a little more channeled than that. While we do interface with a 
multitude of Federal agencies and departments simultaneously, 
and we have a whole staff led by Colonel Chavez that does that, 
most of that communication under the National Response Plan is 
first channeled to the Department of Homeland Security.
    The Department of Homeland Security has the lead under the 
National Response Plan. And while we interface with all the 
Federal agencies, in a crisis environment probably 90 percent 
of our communication is with DHS because they have the Federal 
lead and we are in support of their mission.
    Senator Akaka. Secretary McHale, Deputy Secretary England 
called Admiral Keating and instructed the Admiral that NORTHCOM 
should push DOD resources to the disaster site in anticipation 
of receiving a FEMA mission assignment. Were you involved or 
notified of this decision?
    Secretary McHale. Yes, sir. I was in the meeting--that's 
dated August 30, I believe?
    Senator Akaka. I don't have the date.
    Secretary McHale. My belief is that the communication 
between the Deputy Secretary and Admiral Keating took place on 
August 30. And it followed a meeting that I had attended with 
the Deputy Secretary of Defense, the Chairman of the Joint 
Chiefs, and others early that morning. And the sense of urgency 
that is clearly implied by the content of that communication 
had in fact been guiding our Department for more than a week 
prior to that communication.
    We felt a sense of urgency. We leaned forward well beyond 
waiting passively for RFAs. We tried to identify assets, deploy 
them, and move as quickly as was humanly possible to include 
most especially the rapid deployment of National Guard forces. 
So yes, sir, I was aware of that communication and had 
participated in the meeting that immediately preceded it.
    Senator Akaka. Madam Chairman, if I had more time, I wanted 
to compliment our military for what had happened in 1992 in 
Hawaii when we had Hurricane Iniki, and how well it moved with 
Admiral Chuck Larson as the CINCPAC head.
    We arrived at 3 a.m. in the morning, and he called us 
together. To make it quick, he said, when you get in there, 
provide all the supplies and equipment that's needed. And as 
soon as you begin to do that, begin to plan to get out. And 
anything you do, you do by consulting the Mayor of Kauai.
    And it worked out so beautifully. The people of Kauai were 
so happy that when the military moved out, they had banners to 
say, ``Mahalo,'' which is ``thank you,'' to them for what they 
did to help the people of Kauai. And we need to make sure that 
all Americans are afforded the same level of cooperation and 
coordination. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. I'm impressed by your testimony, and I 
trust you understand we're Monday morning quarterbacking here, 
obviously. And I'm reminded what President Eisenhower said--I'm 
paraphrasing a bit--but that any 8th grade student of history 
can make better decisions in hindsight than a president or a 
general can in the midst of the battle.
    But we are--and I agree with Senator Lieberman's 
observation. And I'm glad that it is being modeled because I 
think we are, in a sense, using this as a learning experience 
for what we need to do legislatively. I'm impressed that the 
Constitution is first and foremost before you and that you're 
following that as you understand it, and others with you. And 
that's refreshing to know. And it is important.
    But I think, what Senator Akaka just said about 
interjecting also at the local level, the mayor. At what point 
does this plurality of command, or responsibility, I guess, the 
governor, a mayor, Federal agencies, FEMA--at what point does 
that get overwhelmed by the magnitude of the event such that 
there does have to be a shift? And who makes that decision?
    I think that really is the crux of some very critical 
issues here. And certainly we need to know, is there anything 
in terms of legislation or in terms of what we impose as 
restrictions that are impeding that decisionmaking and that 
response?
    As part of that, Mr. Secretary, I wonder if you could 
elaborate on your relationship with FEMA. And you talk about 
being in support of FEMA. You said in your written testimony 
that on Thursday, August 25, DOD augmented its liaison officer 
at FEMA with three emergency preparedness liaison officers.
    Where is that occurring? Is that in New Orleans? Baton 
Rouge? Washington?
    Secretary McHale. That reference, sir, I believe was FEMA 
headquarters here in Washington, DC. I'll take both parts of 
your question in the order in which you presented them.
    The Constitution is lots of things, but it's not a model of 
efficiency. It wasn't designed to be efficient. The system of 
checks and balances brings inevitable----
    Senator Dayton. Sorry. I've got limited time. I'm agreeing 
with you.
    Secretary McHale. Well, on the question of FEMA, what we 
have done is we have established over a 3-year period of time a 
very close working relationship, particularly in a crisis 
environment, with DHS and with FEMA. And so we have a full-time 
staff that is co-located with the Homeland Security Operations 
Center over in the Department of Homeland Security. In a crisis 
environment, as indicated in the note that you cited, we send 
additional officers under the authority of our staff over to 
FEMA to be co-located at FEMA headquarters here in Washington, 
DC.
    Admiral Keating has the authority, and he exercised the 
authority, to forward deploy Defense Coordinating Officers and 
their teams in the field in New Orleans and Baton Rouge, in 
this case, to be co-located with FEMA. We had two Joint 
Headquarters that we deployed to be co-located with FEMA.
    We made it a focused-intent effort on our part to establish 
the closest possible working relationship with FEMA to include, 
you'll see in the record, on August 31, I called Mike Brown. I 
indicated to Mike Brown that we had two very talented officers, 
two colonels, that we would make available to him to augment 
his personal staff to ensure better connectivity and support 
between FEMA and DOD. He accepted that offer, and those 
colonels were deployed and promptly joined him in New Orleans.
    Senator Dayton. Following that, then, sir, according to 
your written testimony, on Thursday, September 1, FEMA made a 
request to DOD to accept the responsibility to provide ``full 
logistics support'' through the entire area. That's at the time 
where the levees have broken----
    Secretary McHale. Yes, sir.
    Senator Dayton [continuing]. Forty eight hours before. The 
civil order, disorder, is kind of overwhelming the local law 
enforcement. Then your next page, I just want to be clear that 
full logistics support, that includes, then, as you out line 
here, search and rescue, security assessment, command and 
control infrastructure, geospatial surveillance, firefighting, 
health and medical support, disease prevention, quarantine 
planning, debris removal, and restoration of basic utilities?
    Secretary McHale. No, sir.
    Senator Dayton. Is that full logistics support?
    Secretary McHale. No, sir.
    Senator Dayton. What is that?
    Secretary McHale. And this comes----
    Senator Dayton. You're also being asked for that as well.
    Secretary McHale. Well, we were asked for that over the 
weekend. And the FEMA witnesses who have conferred with the 
Committee confused those two packages of requests for 
assistance. Here's the chronology.
    On Thursday, we got the largest request for assistance in 
the history in the United States. And it wasn't anything other 
than, ``full logistics support throughout the entire area of 
responsibility.''
    Senator Dayton. What does that mean, then, please?
    Secretary McHale. Well, that's what we asked. And over a 
period of time, in consultation with FEMA and the Homeland 
Security Operations Center, we got a better understanding of 
what they meant by ``full logistics support,'' and we helped 
them in that effort.
    Senator Dayton. Over a period of time? What period are we 
talking? Days? Weeks?
    Secretary McHale. Within 24 hours, we received that request 
for assistance. It had an estimated cost of $1 billion. It 
ultimately covered two States and all the disaster areas. And 
within 24 hours, approximately after the receipt of that 
request for assistance, which came in on Thursday, it was 
approved by the Secretary of Defense on Friday, and I 
communicated that approval, as did others, to senior officials 
at the Department of Homeland Security. So that was the first 
RFA, the largest----
    Senator Dayton. So what constituted, then, in this instance 
``full logistics support''? What were the components of that?
    Secretary McHale. Yes, sir. We viewed it, in consultation 
with DHS, the provision of food, ice, fuel, restoration of 
transportation systems, and items of that type. We conferred 
with the Joint Staff, General McNabb, who is the J-4 on the 
Joint Staff. He assured the Secretary of Defense and me that we 
could execute that mission. And we promptly said yes.
    Now, that was a very broad, fairly loosely defined mission 
requirement. But in a crisis circumstance, we felt that we 
should take that on, and we did.
    Senator Dayton. I'm sorry to be interrupting, but my time 
is limited.
    Secretary McHale. That's all right, sir.
    Senator Dayton. Is this the first instance in which that 
kind of full logistics support was requested of DOD? Who 
provides these in lesser emergency situations?
    Secretary McHale. A request of that type, fortunately for 
our country, is unprecedented.
    Senator Dayton. All right.
    Secretary McHale. It came in on Thursday on a single 8\1/2\ 
by 11 sheet of paper. It said nothing more than what I have 
just quoted to you. We discussed it with DHS and FEMA. We 
refined it a little bit to make sure that we had the capacity 
to meet the requirement. The Secretary was convinced that we 
could meet it. He approved it, and we communicated that late 
Friday afternoon back to DHS. And I sent an e-mail to Deputy 
Secretary Jackson about 7 o'clock Friday night confirming the 
Secretary's approval.
    Senator Dayton. That's the first package, as you've 
described it.
    Secretary McHale. Yes, sir. And that was a single RFA.
    Senator Dayton. Then the second package is this search and 
rescue, security assessment, etc.?
    Secretary McHale. Yes, sir. That was a separate package. 
What happened there, very briefly, was on Saturday morning I 
met across a table with Deputy Secretary Jackson. We talked 
about the challenges that had been experienced in the very 
chaotic circumstances of the previous week.
    I asked Deputy Secretary Jackson to discuss with me the 
anticipated mission tasks that we could expect DOD to provide. 
He and I sat down and drew up a list of about a dozen mission-
essential tasks, which were the missions, the mission areas, 
you quoted a few moments ago.
    On Sunday, while the Secretary of Defense was in New 
Orleans, that list was reviewed by senior officials in the 
Department of Defense and the Department of Homeland Security. 
There were seven requests for assistance in that package. They 
totaled about three-quarters of a billion dollars. And they 
were approved vocally by the Secretary of Defense on Monday.
    So on Friday, we had vocal approval of a $1 billion RFA, 
and on Monday, we had a second series of RFAs with a cost 
estimate of three-quarters of a billion dollars, also vocally 
approved by the Secretary of Defense. There was no delay at all 
in that process.
    Senator Dayton. Sorry to interrupt, Mr. Secretary. But I've 
got to get my questions in here.
    Secretary McHale. Yes, sir.
    Senator Dayton. Fast-forwarding, now, we're in a situation, 
as described in the Washington Post today, ``New Orleans is a 
Gordian knot of complications.'' Everything seems to be 
snarled. Vast sections of the city are still without utilities.
    We saw this when the Chairman and the Ranking Member--I 
accompanied them and others just about 3 weeks ago down to New 
Orleans and Mississippi. But in New Orleans, it says here an 
estimated 50 million cubic yards of hurricane and flood debris; 
of that, only about 6 million has been picked up.
    So initially--and I'm not faulting you with this; I just 
want to understand why so little has gone from the point of 
obviously overwhelming impact? If you have at one point 
initially responsibility for debris removal, restoration of 
basic utilities, how long did you maintain having that 
responsibility? At what point and to whom did that 
responsibility shift?
    Secretary McHale. We provided support to the lead Federal 
agency, DHS and FEMA, for about a 5 to 6-week period of time. 
At the end of that period, perhaps even a little less than 
that, we began the retrograde of our forces--Admiral Keating 
can address that--in close coordination with the Department of 
Homeland Security.
    And so we began to--we built up our force very quickly. And 
then as soon as civilian authorities were able to step into the 
breach in a coordinated retrograde, we began to remove our 
forces from the area of responsibility so that today, for 
instance, there are no active duty military forces committed to 
the mission. There are about 2,000 National Guard forces 
committed. But they, too, are expected to be retrograded by the 
end of this month.
    So what you're describing as the current situation has once 
more, and in fact several months ago, been transferred back to 
civilian authorities.
    Senator Dayton. So the Federal Government is providing $80 
billion now, or $62 billion that the Congress has approved, 
another $18 billion that the President has requested. And that 
goes down to, at this point, then, the governor and the rest of 
this State and local civilian authorities, and they have the 
operational responsibility--if debris is not being removed, if 
basic utilities are not being restored, who's responsible for 
that at this point in time?
    Secretary McHale. Sir, I can answer that, but I'm probably 
not qualified to do so. So I'll exercise some unusual 
restraint. All I can tell you is that is no longer a DOD 
mission. We transferred that mission back to civilian 
authorities approximately a month after landfall.
    Senator Dayton. In closing, I'd just say, General Blum, 
when we were down in Mississippi and New Orleans, they're not 
putting up banners down there. If they are, they're 
unprintable. They have bumper stickers down there related to 
FEMA that are printable but not appropriate for this setting.
    But in both Mississippi and New Orleans, from the governors 
and the local officials, there was very high praise for the 
National Guard and their response. And I share that with all of 
you.
    General Blum. Thank you.
    Senator Dayton. Thank you very much. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you, Senator.
    General Blum, I want to go back to the National Guard 
after-action review. Because as you can see, this is a 
voluminous report. You testified earlier to me and to Senator 
Levin's question, in response to our questions, that you hadn't 
seen this report and that you disagree with the findings that I 
read to you.
    I want to point out that this report refers to the National 
Guard Bureau and specifically to J-7. Now, is that one of the 
directorates on your staff?
    General Blum. Yes, it is, and from their point of view, 
what they have in there may be their life experience and 
absolutely truth as they see it. The problem is, the J-7 
doesn't have the total picture. An after-action review, that 
200-some page document that you have, is a compilation of all 
the lessons learned as they saw it.
    Now, that gets further refined, and will ultimately come to 
me to say what we really do need to do. And I've already done 
some of that with the more critical issues. There's probably 
lots of goodness in that. Perhaps 90 percent of that document 
may be absolutely accurate and valid.
    But that particular paragraph that I saw displayed on the 
chart does not reflect my professional or personal feelings, 
and I don't think it accurately presents the overall picture of 
what was going on with DOD, the Joint Staff, Northern Command, 
General Honore's Joint Task Force in the two States. And I 
thought that I owed it to you to give you ground truth.
    Chairman Collins. You do, and I appreciate that. I do want 
to point out to you that the NGB J-7 analyzed, in compiling 
this, after-action reports from the Army National Guard, the 
Air National Guard, the National Guard Bureau Joint Staff, 
lessons learned liaison officers deployed to the areas of 
operations, the NGB public affairs office, the NGB Judge 
Advocate General's office, as well as a structured hot wash 
conducted in Texas at the very end of September.
    So it isn't as if this is the opinion of one narrow 
directorate. It's a directorate that did what appears, from the 
description on how this report was compiled, a very thorough 
assessment across the board of after-action reports. So I 
wanted to clarify that as well.
    And I guess my final question on this report for you is: I 
understand that you personally disagree with the findings that 
I read to you, but are you saying that it's the official 
position of the National Guard Bureau that the findings that I 
read you on command and control are inaccurate?
    General Blum. The paragraph that you exposed me to today, 
the official findings are what I say, I am the Chief of the 
National Guard.
    Chairman Collins. Right. That's why I'm----
    General Blum. Ultimately, I am the final word on what the 
Guard's opinion is on that. And I've shared that with you now 
twice, and I stand by it.
    Chairman Collins. Right. I just wanted to be very clear on 
this because it's unusual to have a report that comes from your 
bureau----
    General Blum. No, it really isn't. And any time you do an 
after-action review of a complex operation, you will see many 
refracted versions of the truth. We're hearing some of it this 
morning. Perception is not always reality. It is my job to look 
at the whole picture. What they are holding are several pieces 
of the puzzle, several tiles in a mosaic. I happen to see the 
view of the entire thing from a vantage of perspective that 
they did not have.
    Chairman Collins. Right. But your J-7 talked to the Army 
National Guard, the Air National Guard, the public affairs 
office, and the JAG office. This wasn't just a narrow section. 
And I just want to get that on the record.
    General Blum. I am not attacking the job they did, nor 
the----
    Chairman Collins. I fully understand your personal views. 
Thank you.
    General Blum. OK. Thank you, Madam Chairman.
    Chairman Collins. Admiral Keating, I want to go back to the 
time frame on the deployment of active duty troops. Governor 
Blanco told us that she asked for the deployment of Federal 
troops on August 30. On August 31, two key active duty units, 
the 82nd Airborne Division and the First Cavalry Division, were 
put on heightened alert. But they were not actually deployed to 
the disaster area until September 3.
    I'm trying to get a better understanding of why the troops 
were not deployed earlier. You have the request from the 
governor on August 30. You have the heightened alert given to 
these two key units on August 31. But they're not actually 
deployed until September 3.
    Admiral Keating. Yes, ma'am. And that timeline is accurate. 
Those forces in question, the 82nd Airborne, First Cavalry, and 
some elements of Marine units from both coasts, represent less 
than a third of the total active duty forces committed.
    While they were somewhat prominent in that their role in 
New Orleans was significant, and they're readily identified by 
their red berets, I would hasten to point out to you and to the 
Members of your Committee, we had active duty forces there 
before the hurricanes hit. We were deploying--because of the 
authorities that Secretary England gave me--ships, airplanes, 
Air Force personnel who were opening up airports, literally as 
the hurricane was clearing the central part of our country.
    So those forces in question, yes, ma'am. Identified, 
prepared to deploy order--is the term we give them--on 
Wednesday of that week. Didn't get the authority to move them 
until Friday night and Saturday of the week after landfall. 
Less than a third of the total active duty forces committed to 
the actual rescue operation, however.
    Chairman Collins. Thank you.
    Secretary McHale, I appreciated the candor in your earlier 
testimony this morning talking about the relationship between 
DOD and DHS and the very different perceptions on how the 
process works. And as you've correctly pointed out, we've had 
testimony, sworn testimony, before the Committee which paints a 
very different picture from your perception of how the process 
works.
    So I'd like to follow up on the issue of mission 
assignments for a moment. The Stafford Act--which is the law 
that authorizes mission assignments, as you're well aware--is 
very clear in the authority that it gives to the President, 
which he has designated to the Secretary of Homeland Security. 
And that authority is to direct--that's the word that's used--
direct any Federal agency, with or without reimbursement, to 
utilize its authorities and resources in support of State and 
local assistance efforts.
    Now, the word ``direct'' in my judgment does not suggest 
any room on the part of the agency that's asking for help to 
negotiate terms with the--or I should say on the part of the 
agency that's been asked for help to negotiate the terms of 
that help.
    I want to get this clear in the record because we have been 
told repeatedly by FEMA officials that DOD is alone among 
Federal agencies and departments in requiring an often lengthy 
period of negotiations before it will accept a mission 
assignment. In other words, other agencies just take the 
mission assignment from FEMA and go forth and do it. FEMA tells 
us that DOD even rejects the term ``mission assignment'' and 
instead says that these are simply requests for assistance. Big 
difference.
    The White House, in a briefing, recently told us that to 
enter into a mission assignment, FEMA and the Defense 
Department undergo this 21-step process. And the White House 
said, that's too long. It's got to be streamlined in some way.
    Now, let me say that I think DOD got some assignments from 
FEMA that lacked clarity, that were vague--take over logistics, 
what does that mean? But I am troubled about the DOD approach 
that the Pentagon has the ability to treat these as requests 
when the law says that agencies are directed to comply. Could 
you comment on this issue further for us?
    Secretary McHale. The description that has been given to 
you by past witnesses with regard to the chain of command is 
accurate. The description given to you in seeking a change in 
the law on that subject indicating undue delay in processing 
RFAs is inaccurate. So the rationale for the argument is false, 
although the description of the authorities as they currently 
exist is accurate. Let me backstep a little bit.
    The Department of Defense is unique under the Constitution 
and under the Goldwater-Nichols Act. There is a military chain 
of command from the President to the Secretary of Defense to 
Admiral Keating out to his operating forces.
    We have taken the position that, under existing authorities 
and as a matter of policy, placing a FEMA official or a DHS 
official in command, placing that civilian outside the 
Department of Defense within the military chain of command, 
violates Goldwater-Nichols and is a bad idea.
    You can decide whether or not it would have been a good 
idea for Secretary Brown to have command authority over General 
Honore's forces in New Orleans. We take the position that only 
General Honore should have command over his forces.
    The historic term is a request for assistance. The term 
used more recently by FEMA is a mission assignment. We do push 
back on that because we do not believe that the chain of 
command within the military, though we want to work closely and 
in a supportive and efficient way to assist FEMA, giving FEMA 
actual command authority over military forces places a military 
commander in the field in a very difficult position. Does he 
listen to the PFO or does he listen to the Secretary of Defense 
in receiving his orders?
    With regard to the facts that they have presented, and 
Senator, I would say in a very respectful way, it really isn't 
our perception. Those who criticized us were factually wrong. 
They confused two different sets of RFAs. The $1 billion RFA, 
it's well documented, was processed and approved within 24 
hours. The seven RFAs initially generated by Deputy Secretary 
Jackson and me over the weekend were approved verbally by the 
Secretary of Defense.
    I can tell you, in a crisis, there are no 21 steps for 
approval. It involves frequently a phone call from the Homeland 
Security Operations Center, from Matt Broderick to me or to 
another official in DOD; a review by the Joint Staff; a 
conference with the combatant commander; and a prompt 
presentation to the Secretary of Defense, who's not at all 
hesitant to make a firm decision very promptly.
    We decided almost $2 billion worth of RFAs between Friday 
and Monday. I don't know that human beings can assess such 
complex missions and approve them more rapidly than that. And 
that's the documented record.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thank you. General Blum, I'm interested 
in the way we talk about dual-hatting with the National Guard 
separately reporting to the governors and then the Department 
of Defense.
    General Landreneau mobilized the Louisiana National Guard, 
but you also mobilized a considerable force from throughout the 
Nation, National Guardsmen to come into the damaged area. Do 
you have any requirement--I just want to have this for the 
record--to notify Northern Command, for instance, or anyone at 
the Department of Defense--or get any approvals at the Defense 
Department to do that? I mentioned Northern Command because of 
the responsibility for homeland defense.
    General Blum. In statute, sir, no. In practicality, 
obviously you have to do that. It gets to Senator Akaka's 
question: If you don't have that communication and 
relationship, you have misunderstanding, duplication, 
redundancy, and confusion.
    Senator Lieberman. Yes. That's what's really interesting 
about our American system because you have no real legal 
requirement to notify.
    General Blum. That's correct.
    Senator Lieberman. You've got a separate command authority 
to the governors. Do you remember who you did notify that this 
was happening at the Defense Department?
    General Blum. Well, we can start with the Secretary of 
Defense, who was personally knowledgeable every----
    Senator Lieberman. You spoke directly to him that this was 
happening?
    General Blum. Every day. The Deputy SECDEF.
    Senator Lieberman. Good enough.
    General Blum. The Chairman of the Joint Chiefs.
    Senator Lieberman. I got it. Good enough.
    General Blum. The Assistant Secretary.
    Senator Lieberman. We had testimony last week from Governor 
Blanco. You had been asked in the pre-hearing interviews we had 
with you, General Blum, about some of this, and I want to give 
you a chance to respond.
    On Thursday, September 1, you visited Louisiana, and you 
discussed the command and control of the rapidly escalating 
number of Guard forces in the State and advised the governor, 
according to her testimony--and I believe you confirmed this 
with our staff earlier; certainly her staff did--that she 
should not ask for federalization of the Guard. At that point, 
as she testified, she was just looking for the most help she 
could get. And I believe you indicated to her that 
federalization would not get her an additional soldier, which 
it would not.
    Then she reported this series of conversations or calls 
from the White House that we referred to on Friday night, three 
of them from 11:30 p.m. to 2 a.m., in which she was asked by 
various people, including Chief of Staff Andrew Card, to sign 
that MOU which would have had a kind of federalization/dual-
hatting and that she thought that contrary to what you had said 
earlier on the day before that you were advocating that she 
accept federalization.
    I wanted to give you a chance to respond. There was some 
suggestion you may have felt under some political pressure at 
that moment from the White House. Just tell us what was going 
on then and how you saw what she was being asked to do.
    General Blum. Absolutely. And the first part of your 
question is absolutely accurate. I did visit New Orleans on 
September 1. I've also visited Mississippi, talked to the 
senior leadership in Mississippi, then flew into New Orleans, 
and then flew up to Baton Rouge where I met with General 
Landreneau and Governor Blanco.
    Discussion did take place, and she asked my opinion on 
federalization. I said operationally it didn't look like it was 
a necessity at that time. It looked like the force flow coming 
in was adequate, or more than adequate, to meet her needs. She 
asked for--and so did General Landreneau at that time--
additional forces. We made communications and got that moving. 
That was on September 1.
    Senator Lieberman. Right. I understand.
    General Blum. On September 2, the President of the United 
States visited New Orleans. The mayor was there. The governor 
was there. I was there. And all three of those elected 
officials at the Federal, State, and local parish level had a 
national news conference where they declared that General 
Landreneau had just successfully taken down the last bastion of 
civil unrest or concern about civil unrest in New Orleans. This 
was about 12:30 that afternoon.
    And they were all three elected officials--the mayor, the 
governor, and the President--satisfied that the security 
situation in New Orleans was in hand. And they complimented 
General Landreneau and the National Guard troops who supported 
what was available of the New Orleans Police Department, which 
actually was the--we were in a military support to law 
enforcement role at that time, authorized by the governor. And 
everyone was satisfied with that.
    I came back from New Orleans that evening.
    Senator Lieberman. Thursday evening?
    General Blum. Yes, sir. Late, pretty late. About 11:30 p.m. 
I landed at Andrews, if I recall correctly. I was asked to 
present to Governor Blanco some options that would be command 
and control operations or federalization options.
    Senator Lieberman. You mean on Friday? Friday, you were 
asked to do that?
    General Blum. Well, let me look at the calendar.
    Senator Lieberman. I guess the question is: How did you end 
up on those calls from the White House on Friday night?
    General Blum. I was asked to make that. And that's not 
illogical.
    Senator Lieberman. No. I understand.
    General Blum. Statutorily, here's where my job is in law. I 
am the channel of communications between the governors and the 
Department of the Army and the Air Force. Since we're talking 
about Air National Guard, Army National Guard, and governors, 
it would not be illogical for me to make that offering to her.
    I made the offering to her. She wanted time to consider it.
    Senator Lieberman. This was, again, just for the record, 
the memorandum of understanding, the dual hat? That's what you 
mean by the offering on Friday night over the phone?
    General Blum. That's correct.
    Senator Lieberman. Right.
    General Blum. That's correct. And she wanted to reflect on 
it, and she said, I don't see a reason to do it. She had some 
concerns. We addressed the concerns. She was called back again 
because of that. She again said, I would like to have some time 
to look at this and my legal people look at it, and she 
ultimately rejected it.
    I left the White House, and if she had subsequent 
conversations after that with anybody in the White House, I 
wouldn't know about it.
    Senator Lieberman. Yes. Do you think she made the right 
decision in rejecting?
    General Blum. Absolutely.
    Senator Lieberman. You do? Understood.
    General Blum. Absolutely.
    Senator Lieberman. For the record. Then we go to Friday. 
And as I said earlier, time is of the essence. And a lot of 
this is when you get personnel in.
    We're on Friday, and here's what Governor Blanco said to us 
last week. And I quote from her testimony: ``The drama moments 
were settled''--I think she means handled, but--``settled by 
the Louisiana National Guard and the Guard members from 50 
States, four Territories, and Washington, DC. And I couldn't 
get one Federal Government to move its troops in to assist. So 
you know at that point in time''--and here I think she's 
talking about the Friday night discussion--``this hybrid 
arrangement coming to me at midnight just seemed a little like 
posturing instead of a real solution.''
    Let me just add to this, in Exhibit 5,\1\ which I'm going 
to describe to you but you can check if you want, General Rowe, 
NORTHCOM operations director, told us that the general view at 
NORTHCOM at that moment on Friday--and he suggested at DOD and 
certainly at the National Guard Bureau--was that Federal troops 
were no longer necessary. And then we have an Exhibit 6,\2\ 2 
a.m. Saturday--that would have been September 3--8 hours before 
the President gave the deployment order for Federal troops, the 
Joint Staff operations director says that the Federal troops 
are no longer necessary.
---------------------------------------------------------------------------
    \1\ Exhibit 5 appears in the Appendix on page 172.
    \2\ Exhibit 6 appears in the Appendix on page 190.
---------------------------------------------------------------------------
    General Rowe, incidentally, says that the reason for the 
view at NORTHCOM that there was not a requirement for Federal 
troops, and I'm paraphrasing here, was undoubtedly influenced 
by the massive number of Guard troops that had already been 
deployed.
    So the question is--and here I want to give you, Mr. 
Secretary, the opportunity to respond to what the governor 
said, and to some extent seems to be validated by General 
Rowe's interview with our staff, that by that time, as that 
Saturday morning approached that the President deployed Federal 
troops, they really weren't necessary.
    Secretary McHale. At that time, it was clear to anyone 
looking at the situation they absolutely were necessary. I'd 
have to speak with General Rowe to get his understanding of his 
comments. But on Saturday, September 3, there were nearly 
35,000 military forces in the AOR--29,491 National Guard, 4,631 
Federal forces, with massive numbers of Federal forces on the 
way, ultimately building up on September 10 to 22,000. I 
believe this is the distinction drawn by General Rowe, but 
you'd have to ask him.
    It was clear that massive combat service support, Federal 
military requirements, were needed in this area--logistics, 
communications, debris removal, search and rescue, and mortuary 
affairs. It was obvious that this was the largest natural 
disaster requiring a military response in American history, and 
massive amounts of Federal military resources, including 
troops.
    The issue was: Did we need light infantry in order to 
restore civil order in the presence of National Guard MPs? Did 
we need to send in not logistics support, humanitarian relief, 
but forces to restore civil order? And at the period of time, 
Senator, you have cited, it was very much in question as to 
whether or not troops, meaning Federal troops, infantry to 
restore civil order, would be required.
    Senator Lieberman. Let me interrupt. Just because by that 
time, the evacuation of the Superdome and the Convention Center 
had been carried out by the Guard, and there appeared to be a 
restoration of order. I get your point.
    Secretary McHale. We were moving in that direction. And 
General Blum during that very period of time was moving 4,200 
National Guard MPs and security personnel into New Orleans. So 
there was real doubt as to whether we needed Federal infantry 
going in.
    Senator Lieberman. And maybe that's what the governor had 
in mind. But you're saying beyond that function, there was a 
need nonetheless for the logistics----
    General Blum. Yes, sir.
    Secretary McHale. Absolutely. Humanitarian relief.
    General Blum. Let me help in that, if I can.
    Senator Lieberman. Please.
    General Blum. The Chairman alluded to the fact that my son, 
who is a military police company commander from the Maryland 
National Guard, was diverted from his mission in Honduras and 
sent with his unit to New Orleans. They accomplished their 
mission riding on amphibious vehicles provided by the U.S. 
Marine Corps because the Humvees that we have in the National 
Guard are not suitable for high water traffic and were 
necessary in the parish that he was operating in.
    So if you want to see a perfect example of jointness and 
unity of effort, it is a Maryland National Guard military 
police commander diverted from a mission riding on an 
amphibious Marine piece of equipment that if you had not sent 
the Marines in, we would not have had. So he was able to do his 
support to civilian law enforcement work because of the 
enhanced capabilities brought in by the Title 10 Marines, which 
I think is welcome. I don't think we should--there's goodness 
in this.
    Senator Lieberman. I hear you. It's well said. And my time 
is more than up. I think I'd like to just leave you with two 
questions, which I'll frame for you and ask you to answer in 
writing, to all of you.
    One is--and this is really particularly for General Blum--
is there any circumstance under which you would think it 
appropriate and necessary to federalize the National Guard? I'm 
not asking for an answer now.
    And the second question really goes more to Secretary 
McHale's earlier point about the paradigm changing. Do we need 
to change the paradigm? Do we need to invest more in the Title 
10 active duty military to be ready to move in in this kind of 
case, and in a terrorist case, with prepositioned assets or 
rapid response? Or is the better alternative to give greater 
support, training, equipment, etc., to the Guard nationally and 
let--I don't think I have the time where we have to answer it 
now. But that's a very important question for us, and it will 
be something, I think, that Senator Collins and our Committee 
may, if we reach a consensus, want to make some recommendations 
on in our final report.
    Secretary McHale. Senator, if I may, there is a third 
option that should be included in that package.
    Senator Lieberman. Please.
    Secretary McHale. We tend to view the two options that you 
have presented as a consolidated whole. We look to the total 
force, whether it's active duty or National Guard. And the 
rapid deployment of National Guard forces, in this case in 
overwhelming numbers, reflected not a necessity. It was a 
choice. It was a strategy. We believe that Title 10 forces 
should be preserved for overseas war fighting, the primary 
mission of the Department of Defense. And we think the Guard is 
ideally suited for domestic missions.
    But the third part that needs to be considered is: As we 
improve DOD capabilities, both active and reserve, we need to 
think through what kinds of capabilities should exist in the 
civilian sector so that DOD does not become the default setting 
of immediate resort because those capabilities, including first 
responder capabilities, may not currently be trained and 
equipped adequately within the civilian sector.
    Senator Lieberman. Fair enough. I know every time I return 
to those two helicopters, you and I get into a debate. But part 
of the question is: Should the Guard have had those two 
helicopters, and should FEMA have been ready to ask the Guard 
instead of the active duty military for those helicopters, and 
would they have arrived--ideally they would have arrived on 
Monday afternoon after the hurricane subsided so they could 
have been put right to work.
    Admiral Keating. Senator, there were DOD helicopters there.
    Senator Lieberman. So I guess the question, then, is: Why 
didn't those two helicopters get there until Tuesday night when 
they were requested on Sunday afternoon?
    Admiral Keating. I don't know, sir. I'm perceiving that 
there's a theme that we were slow to respond and it wasn't 
until Friday/Saturday/Sunday that DOD Title 10 guys and girls 
got there. Patently inaccurate.
    We were talking to forces on the U.S.S. Bataan, for 
example, before the hurricane hit, telling the captain of that 
ship, from my lips to her ears, get as close as you can to the 
center of the storm because you're certain to be needed. This 
is on Sunday afternoon. She, Captain Nora Tyson, had eight 
helicopters on board who were flying in near--well, bad weather 
in the wake of the hurricane.
    So the two helicopters that you cite, Senator, I'm not 
quarreling that they were late. It's just they were two out of 
what ended up to be 230 helicopters. There was much more there.
    Senator Lieberman. Yes.
    Secretary McHale. Sir, I was just going to say you can't 
possibly deploy 72,000 forces by September 10 if you begin at a 
dead start. We were leaning into this a week before landfall, 
preparing forces, equipping forces, getting them ready to move, 
and then actually moving them in advance of landfall.
    Senator Lieberman. OK. Here's the whole picture for all of 
us to look at. And we've seen it much more painfully in other 
Federal agencies. When Dr. Max Mayfield and everybody else is 
beginning to--with a crescendo saying, ``This is the big one,'' 
what more could we have done?
    This is really self-critical so we do it better next time: 
To get every conceivable asset in place, to evacuate more 
people so we wouldn't have had those terrible circumstances at 
the Superdome and the Convention Center for people in New 
Orleans, and get them there as quickly as possible because time 
is of the essence. And we hold ourselves, and all of you, to a 
very high standard.
    And I appreciate what you did, and next time we want to 
make sure the Federal Government does a lot better. Thank you.
    Chairman Collins. Thank you, Senator.
    I want to thank this panel. I, too, am going to have some 
additional questions for the record. We do need to move on to 
the next panel, but I want to give you a preview of what those 
questions are going to be.
    Secretary McHale, it seems to me what you have described 
today is a conflict between the Goldwater-Nichols Act and the 
Stafford Act. If you read the two laws together, it seems to me 
that there is a conflict there. And my question for the record 
for you is going to be: Do you agree there is a conflict? And 
if so, what are the Department's recommendations for resolving 
that conflict?
    It's an important issue because, in fact, the White House 
has said that DOD itself identified this 21-step process as 
being a problem with the response. Now, maybe you disagree with 
that assessment. But that's what we have heard. And when you 
look at the $1 billion--the biggest FEMA request ever made of 
DOD, in fact, that was cut down to half that amount. So I want 
to pursue those issues with you.
    Admiral Keating, I did not get to explore with you some of 
the situational awareness issues that we talked about in our 
interview last Friday, including your visibility into what the 
Guard was doing and also when you knew that the levees broke. 
Because it was the collapse of the levees that made the 
catastrophe so much worse.
    And it seems to me, from what you told me last Friday, that 
there was quite a delay between when the FEMA person on the 
ground on Monday morning knew that the levees had broken and 
when that information got to you. And that's a problem. That's 
another lesson learned as far as communications. And I see 
you're nodding in agreement on that.
    There are so many other issues that we will be submitting 
questions for the record. I do appreciate your testimony today, 
and I am going to thank you now and go on to the next panel, 
unless----
    Senator Warner. Would you allow me----
    Chairman Collins. I'm sorry. I didn't realize Senator 
Warner had come in.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Madam Chairman. I 
won't delay it. But we have the Attorney General two hearing 
rooms down on the question of the surveillance issue, and I'm 
part of that Intelligence Committee.
    But I just want to say that I've observed quite a few 
things in my 28 years here in the Senate, and this is an 
extraordinary event brought on by extraordinary circumstances 
of nature, which I don't think any of us could have foreseen.
    But Madam Chairman and all three of us here are on the 
Armed Services Committee. I personally, in my own independent 
analysis of what you've done, I think you've done an exemplary 
job. Yes, hindsight shows here and there we could have perhaps 
done things somewhat differently.
    But on the whole, I think the United States, the people of 
this country, have the highest regard for the National Guard, 
working with their brother Guardsmen in Louisiana and 
Mississippi, and for the regular forces, Admiral Keating, which 
were brought in to give additional support. Many a person has 
said that the uniform was a quieting presence and a reassuring 
presence to citizens that were just in a state of total 
distraught.
    So I may have one or two questions for the record. I still 
am trying to probe this Posse Comitatus doctrine. I'm not 
advocating it, but I just want to make sure the system looks at 
it very carefully. And then I'd like to express my views as to 
whether a change should be made to that.
    Secretary McHale. Yes, sir.
    Senator Warner. You and I have talked about that, Mr. 
Secretary. Because when those uniforms are on the street and 
the active force has to step back and turn over to the Guard 
such support as they may be giving to local law enforcement, or 
in the absence of local law enforcement they have to be law 
enforcement, that leaves an extraordinary impression that all 
those in uniform, the same uniform, half have to step back and 
the other half have to take on that situation.
    And there has been some testimony. There were instances 
where, had the active forces had the authority--which they 
don't under the law--they might have been able to curtail some 
of the looting, which is a very tragic aspect of these natural 
disasters.
    I thank the Chairman.
    Chairman Collins. Thank you.
    Senator Warner. And I commend you and your troops.
    Chairman Collins. Thank you.
    I'd now like to call forward our second panel of witnesses. 
Lieutenant General Russel Honore is the Commanding General of 
the First U.S. Army, which is based in Georgia. He's been an 
Army officer since 1971 and has served in a variety of command 
and staff positions. General Honore commanded Joint Task Force 
Katrina, the active duty military force that responded to the 
Gulf Coast region.
    Major General Bennett Landreneau is the Adjutant General of 
the State of Louisiana as well as the Director of the Louisiana 
Office of Homeland Security and Emergency Preparedness. General 
Landreneau has served in the Louisiana National Guard since his 
enlistment in 1969.
    We're very pleased to welcome you both here today. We very 
much appreciate your service, not only to the people of the 
Gulf Coast but also to your country. And General Honore, we 
will begin with you.

TESTIMONY OF LIEUTENANT GENERAL RUSSEL L. HONORE,\1\ COMMANDING 
                    GENERAL, FIRST U.S. ARMY

    General Honore. Good afternoon. Chairman Collins, Members 
of the Committee, for four of the past six hurricane seasons, 
I've had the opportunity to support the Department of Defense 
planning and response to hurricanes. Hurricane Floyd in 1999, 
Hurricanes Lili and Isidore in 2002, Hurricane Isabel in 2003, 
and Hurricanes Charley, Frances, Ivan, and Jeanne in 2004. I 
also helped plan and supported the U.S. military's response to 
devastating floods which swept through Venezuela in 1999 and in 
Mozambique in 2000.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Honore with attachments 
appears in the Appendix on page 91.
---------------------------------------------------------------------------
    It has been 164 days since Hurricane Katrina made landfall 
on the Gulf Coast of the United States. We only have 111 days 
until the next hurricane season. Today, 42 percent of the 
American people live within 20 miles of the waterways of 
America. With that in mind, I will abbreviate my comments here 
so we can get to the questions you would like to do. But I'd 
like to just mention a few points.
    First, prior to my return from the Gulf Coast, I had 
meetings with Admiral Allen and General Landreneau, and 
informally we looked at some tasks or some quick fixes. We 
identified 11 of them. I'd like to share those with you:
    Establish pre-event unified Command and Control (C2) 
organizational structure.
    Pre-position unified mobile disaster assessment teams.
    Designate a single DOD point of contact for the Federal 
Coordinating Officer to coordinate requirements.
    Implement a local/state employee Disaster Clause to dual-
hat/train employees to fill key disaster support manning 
shortfalls.
    Pre-position common interoperable communications assets.
    Establish external support (push packages/funding) to fill 
common resource shortfalls.
    Pre-allocate space in the State Emergency Operation Centers 
to integrate Federal or other external agencies.
    Develop a Continuity of Government Plan that sustains 
government functions at the State level.
    Pre-arrange support contracts for required resources.
    Acquire and integrate assured power supply--meaning 
generators--and make it a requirement that gas stations, 
pharmacies, and local Emergency Operations Centers have 
generator power during and after hurricanes.
    Gain industry commitments to re-establish critical 
services.
    With that, ma'am, the rest of my statement is for the 
record. I'll defer, with your permission, to General Landreneau 
or to your instructions.
    Chairman Collins. Thank you. General Landreneau.

 TESTIMONY OF MAJOR GENERAL BENNETT C. LANDRENEAU,\1\ ADJUTANT 
 GENERAL, LOUISIANA NATIONAL GUARD; DIRECTOR, LOUISIANA OFFICE 
        OF HOMELAND SECURITY AND EMERGENCY PREPAREDNESS

    General Landreneau. Madam Chairman, Senator Lieberman, 
distinguished Members of the Committee, I'm honored to be here 
with you today to discuss the military response for Hurricane 
Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Landreneau with attachments 
appears in the Appendix on page 109.
---------------------------------------------------------------------------
    Before I begin I would like to express my deepest 
appreciation to all who provided support to Louisiana in our 
hour of need. In the face of our Nation's greatest natural 
disaster, the heart and soul of this country launched the 
greatest response and outpouring of support ever witnessed on 
American soil, and we are forever grateful.
    I greatly appreciate the hard work and creativity of the 
professional emergency managers who work with the Louisiana 
Office of Homeland Security and Emergency Preparedness 
(LOHSEP). Their dedication is noteworthy and commendable.
    I also am thankful and proud to work alongside the finest 
National Guard soldiers and airmen in the United States. Their 
courage and selfless service in the face of tremendous turmoil 
was inspiring.
    In Louisiana, the Adjutant General of the National Guard 
also serves as the Director of Homeland Security and Emergency 
Preparedness. As Commander of the Guard and Director of LOHSEP, 
I am responsible for the actions of these organizations, and I 
am responsible for ensuring these organizations implement 
lessons learned from this disaster.
    When Governor Blanco declared a state of emergency, I 
recommended the activation of 2,000 National Guardsmen early 
on. This activation began a chain of events that initiated our 
emergency response plan and began the coordination with staff 
and units to implement preplanned support requirements for 
response operations.
    As we gathered more information on the strengthening storm, 
I recommended to Governor Blanco that we increase the 
activation to an additional 2,000 soldiers, for a total of 
4,000, unprecedented pre-storm in Louisiana.
    As part of the Louisiana National Guard's response plan, we 
have standing agreements with parishes in the greater New 
Orleans area to provide personnel and equipment. In accordance 
with our plan, high water vehicles and soldiers were assigned 
to each NOPD district, the Jefferson Parish Sheriff's Office, 
St. Bernard and Plaquemines Parishes, along with each of the 13 
parishes in Southeast Louisiana, where we assigned Louisiana 
National Guard liaison teams to coordinate the Guard's 
response. Mobile communication teams and engineer assessment 
teams were staged along the outer path of the projected strike 
zone.
    These teams were moved in as soon as Katrina passed and 
were able to provide early assessment of damage in areas 
surrounding New Orleans. Personnel and equipment are assigned 
to specific Louisiana State Police Troops, and our agreement 
with the City of New Orleans is to provide medical and security 
personnel for the Louisiana Superdome, as it is designated a 
special needs shelter.
    When the Superdome was later designated as a shelter of 
last resort, the Louisiana National Guard responded. Our 
Guardsmen, in support of NOPD, organized and implemented an 
entrance plan that ensured that the personnel coming in were 
searched and that safety was implemented.
    On Monday, when we learned of the multiple failures in the 
Federal levees, we recognized we were coping with a 
catastrophic incident. Louisiana's five levels of redundancy 
within its communications systems were either down or had 
reached capacity, so our ability to receive timely and accurate 
information was degraded.
    As soon as it was possible, National Guard soldiers and 
airmen launched search and rescue boats that had been 
prepositioned at Jackson Barracks and our aviation resources, 
along with the U.S. Coast Guard, soon followed as gale force 
winds subsided. By Tuesday, the Louisiana National Guard had 
every resource committed. We had no reserves. All engaged in 
Governor Blanco's No. 1 priority, search and rescue, saving 
lives.
    On Tuesday morning, I received a call from General Honore 
when he informed me that he was Task Force Commander for 
Alabama, Mississippi, and Louisiana. During our conversation, I 
conveyed the governor's desire for Federal troops, in 
particular, an Army division headquarters to plan, coordinate, 
and execute the evacuation of New Orleans.
    After my conversation with General Honore, I spoke to 
General Blum, Chief of the National Guard Bureau, and requested 
the National Guard Bureau assistance to take the lead in a 
national call for additional assistance from National Guard 
units throughout the country. Today, we know that one of the 
most successful outcomes of Katrina was this execution of the 
Emergency Management Assistance Compact.
    On Wednesday, August 31, General Honore arrived in Baton 
Rouge. I introduced him to Governor Blanco, at which time she 
asked General Honore to coordinate the evacuation efforts in 
New Orleans so that I could concentrate on search and rescue 
and law and order issues. At this point, the governor expressed 
increasing concern with the lack of Federal resources entering 
the State.
    On Thursday, September 1, we began to see the arrival of 
National Guard forces in significant numbers. We eventually 
processed and missioned over 30,000 National Guard soldiers and 
airmen. The governors from all of the States and Territories 
and Adjutant Generals deployed those soldiers in a very rapid 
fashion.
    Also on Thursday, the National Guard began to receive large 
numbers of buses at the Louisiana Superdome. National Guard 
members coordinated around the clock evacuation beginning at 10 
a.m. and completing Saturday. Eventually, 822 buses would be 
used by National Guard forces to evacuate the Superdome.
    In addition to securing and evacuating the Louisiana 
Superdome, the Louisiana National Guard received a request from 
the City of New Orleans to assist in securing the Morial 
Convention Center. On Friday at 12 noon, nearly 1,000 National 
Guardsmen supported the securing of the Convention Center and 
assisted NOPD, and by 12:30 p.m. the area was secure, and by 3 
p.m. food distribution and medical triage facilities were in 
place. Distribution of food, water, and medical care continued 
throughout the night. The evacuation began at 10 a.m. on 
Saturday, as discussed by General Blum, and was completed by 6 
p.m. the same day, again by National Guard forces.
    Madam Chairman, distinguished Members, I tell you today, as 
I recommended to Governor Blanco, that there was never a need 
to federalize the National Guard. Federalizing the National 
Guard would have significantly limited our capacity to conduct 
law enforcement missions and would add no advantage to our 
ability to conduct operations. Thousands of National Guard 
forces were pouring into the State, soldiers and airmen in a 
Title 32 status, most of whom were combat-tested and uniquely 
qualified to carry out the governor's priorities.
    There has also been some discussion about a proposal 
received by Governor Blanco on Friday evening, September 2, 
outlining a dual-hatted commander, one commander to control 
Title 10 and Title 32 forces. I again submit to you that this 
procedure would have served no operational purpose.
    By the time this document was received, there were over 
8,500 National Guardsmen on the ground performing operations. 
Lines of communication, chains of command, and tasking 
priorities had already been accomplished. Changing this process 
would have only stalled current operations and delayed vital 
missions and not have provided any additional boots on the 
ground.
    General Honore and I were in constant communication. When 
Federal land forces began to arrive on Saturday, September 3, 
General Honore consulted me and we discussed their deployment. 
We coordinated how those forces would be utilized. We did in 
fact reach unity of effort, each component working towards a 
common goal while maintaining unique chains of command. We had 
developed a multi-component command operating under the legal 
authorities of Title 10, 14, and 32 of the U.S. Code, all in 
support of the Governor of Louisiana.
    There has never been a time in our Nation's history when 
the National Guard has been in greater demand. We need your 
assistance to make sure our National Guard is properly 
resourced to defend our Nation overseas and to defend our 
people at home.
    I'm very proud of the soldiers and airmen of the Louisiana 
National Guard. There are thousands of examples of heroic 
actions that took place as a result of commanders empowering 
junior leaders to step up, to be innovative and creative, to 
take care of missions, and to carry out the governor's No. 1 
priority of saving lives.
    I thank you and look forward to answering your questions.
    Chairman Collins. Thank you very much, General, and thank 
you both for your testimony and your service.
    General Honore, you made a very important point at the 
beginning of your testimony when you reminded this Committee 
that hurricane season will soon be upon us once again. And it 
is that reality which has motivated this Committee to press to 
conclude its hearings and write its report and make its 
findings and recommendations so that we can learn the lessons 
of Katrina before hurricane season is underway once again. In 
that regard, your 10 quick fixes, or 11, as you listed in your 
testimony, are very helpful to the Committee.
    The first recommendation that you made was to establish 
pre-event unified command and control organizational structure. 
And as you know, with the previous panel, we've had a lot of 
discussion about that issue. Four times recently, prior to the 
event, whether it was the Democratic or Republican national 
conventions or the international summit, and there was one 
other, there was pre-event planning that led to a dual-hatted 
commander being placed in charge. I believe in each case, 
General Landreneau, it was the National Guard official who was 
given the dual-hatted responsibility.
    Is that the kind of planning that you're talking about, 
General?
    General Honore. To some degree, ma'am. Those operations 
take months to plan and prepare. We don't have that luxury in 
preparing for hurricanes or some of the other disturbances that 
might happen on the earth, whether it's due to weather, 
earthquakes, or WMD.
    I was a part of the NORTHCOM staffing with the Department 
when we staffed the dual-hatting concept. The idea was to use 
that dual hat when we had a deliberate plan for a known event. 
We deliberately at that time never considered it as a crisis 
response, where in the middle of a crisis you would determine 
who's going to take command. And I think that the Secretary 
spoke to that earlier.
    Chairman Collins. Well, what are you suggesting be done 
with regard to command and control?
    General Honore. For this hurricane season, we don't want to 
fight the last hurricane, but apply the lessons learned from 
it. Prior to this hurricane season we must bring people 
together.
    We don't want people to meet and exchange business cards at 
the scene. We want to do it quicker. We want to do it better. 
We have an obligation to our citizens that it does not appear 
that they're waiting on us to come to their rescue. We owe, 
true to our oath, that we will support and defend them. And 
when that doesn't happen, it hurts us to our heart.
    Going into New Orleans and the Gulf Coast of Mississippi 
under those circumstances is the reason we're here today 
determining how we might respond quicker. One of the things 
that can be done is to create a prearranged unified command and 
control organization. After talking to some of my colleagues, I 
believe it's in progress and will happen prior to the next 
hurricane season.
    Chairman Collins. General, as far as your other 10 
recommendations, do you know if any of them are being 
implemented?
    General Honore. We have shared them with our higher 
headquarters, Northern Command, as well as with Admiral Allen 
and General Landreneau.
    Chairman Collins. General Landreneau, one of the lessons of 
Katrina is clearly that there has to be a better system in 
place, better planning, and the execution of that plan to 
evacuate people with special needs, nursing homes, hospitals, 
prior to landfall.
    We heard truly tragic testimony over the last week of 
nursing home patients who were not evacuated because the 
nursing homes failed to execute their plans, but also calls for 
help that went unanswered until too late.
    Are you aware of any planning underway in Louisiana to 
improve the evacuation of the most vulnerable citizens of the 
area, those who cannot evacuate themselves, either because they 
are in nursing homes or hospitals, or they're too old or infirm 
or sick to do so?
    General Landreneau. Absolutely. Thank you, Madam Chairman. 
The governor has directed a thorough after-action review and 
identification of any corrective measures that need to be taken 
to ensure that during the next hurricane season, we're in the 
position to be able to support whatever evacuation needs there 
are.
    But I must state to you that as you, in your preamble to 
the questions, spoke to the very difficult time that we had 
with the evacuation, the resources of the local units of 
government were exhausted. The resources, all the resources of 
the State, were focused on saving lives and taking care of 
people. The governor had all of the agencies and all of us 
focused on that. We were totally committed and overwhelmed. 
FEMA was overwhelmed.
    I think it's very clear, Madam Chairman, that this 
incident, a catastrophic incident such as we had with Katrina, 
required the execution of the identification of a catastrophic 
event and the implementation of catastrophic incident annex as 
part of the National Response Plan. This was not done.
    It was only the second day after the hurricane that the 
Secretary of Homeland Security identified Katrina as an 
Incident of National Significance. But Hurricane Katrina was 
never identified as a catastrophic event, as outlined in the 
GAO report.
    That would have given more rapid opportunity for Federal 
forces to flow into the State to be able to assist us with the 
evacuation. It would have also influenced the ability to bring 
DOD forces in quicker.
    Chairman Collins. I realize, General, that hindsight is 
always 20/20. But I'm sure that you're familiar with the 
testimony of the New Orleans Police Department in which we were 
told that there was a specific request to the National Guard to 
preposition five high water vehicles and boats at each of the 
police stations around New Orleans and that the request was 
denied prior to Hurricane Katrina despite the fact that it had 
been approved for previous hurricanes, such as Hurricane Ivan; 
and as a result, when the National Guard Barracks flooded, 
access and the use of some of those vehicles was lost.
    In retrospect, should the National Guard have prepositioned 
high water vehicles at the police departments?
    General Landreneau. Thank you, Madam Chairman, for allowing 
me to comment on that because you're absolutely correct. That 
was what we should do, and that's what we did. I realize that 
Superintendent Riley made comments regarding this to the 
Committee. Superintendent Riley, with all respect to him, was 
not the superintendent at the time.
    The National Guard had a prearranged agreement to 
preposition some 20 high water vehicles and over 100 soldiers 
with the New Orleans Police Department prior to the storm, and 
that was executed. I have submitted documentation to Colonel 
Ebbert, who is Superintendent Riley's supervisor, and I have 
those documents to enter into the record,\1\ where we actually 
did preposition that equipment and personnel with the New 
Orleans Police Department.
---------------------------------------------------------------------------
    \1\ The National Guard documents appear in the Appendix on page 
142.
---------------------------------------------------------------------------
    I have entered as well some statements from soldiers on how 
they worked with NOPD and, in one particular case, where a 
soldier tells of some 500 rescues that they were able to make 
with those high water vehicles.
    And in comment, if you would allow me to comment about 
Jackson Barracks. And it is true that Jackson Barracks flooded. 
It is the headquarters for the Louisiana National Guard. 
However, prior to Hurricane Katrina, in our history, since the 
levees of the Mississippi have been constructed in the early 
1900s, we have not flooded at our headquarters.
    For Hurricane Betsy in the early 1960s, although St. 
Bernard Parish and the Ninth Ward did flood, the headquarters 
for the Louisiana National Guard did not flood, and we were 
able to immediately move out with equipment and personnel to do 
search and rescue.
    But I have to tell you, ma'am, that even with the flooding 
that occurred at Jackson Barracks, the soldiers and leaders 
were very resourceful. They protected the boats. We had 20 
boats that were preserved. We had high water vehicles that did 
flood. But on the second day after the hurricane, they were 
able to get four of those high water vehicles back online.
    And as a result of that, on the second day, with those four 
vehicles, they were able to rescue 90 personnel from a 
retirement home, the Villa St. Maurice in the Ninth Ward. They 
rescued over 500 people during the week. That's just those high 
water vehicles. And a lot more with the boats.
    Chairman Collins. General, my time has expired, so I'm 
going to yield to Senator Lieberman. But let me just clarify 
that although you are correct that Superintendent Riley was not 
superintendent at the time, he was the individual with the 
Police Department who had the conversation with the National 
Guard commander at Jackson Barracks in which he asked for and 
was denied the high water vehicles. So there is a definite 
conflict on the testimony. We look forward to getting the 
information that you've offered to provide.
    General Landreneau. Thank you, Madam Chairman. And we've 
been in contact with Colonel Ebbert in New Orleans. We have 
agreed to meet and go over that information as soon as I get 
back.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Thank you both, General Honore, General Landreneau, for 
being here and for your excellent testimony, but also for your 
extraordinary service during Hurricane Katrina and its 
aftermath. You were really heroes there, and we appreciate it 
greatly. You gave a lot of people a lot of confidence, which 
they needed at the time.
    General Honore, I thank you for the presentation of the 11 
recommendations, which I gather you present on behalf of or at 
least in consultation with both General Landreneau and Admiral 
Allen. They are very helpful, and they go to some of the pre-
event positioning and readiness that I think this story cries 
out for. So I appreciate your being very specific about it.
    General Landreneau, I want to take you through a series of 
questions about your expectations of FEMA in this situation. 
We've talked a lot here about the Hurricane Pam exercise, which 
was the fictional hurricane exercise to try to prepare Federal, 
State, and local agencies for what responsibilities they'd 
have. In Pam, they had not performed very well.
    And I want to go particularly to the question of evacuation 
responsibility because the site of the people at the Superdome 
and the Convention Center was obviously the part that most 
aggravated, angered, and disheartened not only the people 
involved but the rest of the country and, in some sense, 
embarrassed us in the eyes of the world.
    One of the warnings delivered in the Hurricane Pam exercise 
was exactly that, that you've got to get ready because by their 
estimate, there were probably about 100,000 people who would be 
left in New Orleans after an evacuation incident, which was an 
extraordinary evacuation which I know everybody assisted in.
    When our staff interviewed you, General Landreneau, you 
told them that it was your understanding from the Hurricane Pam 
exercise that FEMA had agreed that it would have responsibility 
for the transportation for the evacuation of New Orleans 
because State and local resources would be consumed after 
landfall. Is that roughly correct?
    General Landreneau. That's exactly correct, sir.
    Senator Lieberman. And the understanding of the staff was, 
and mine, too, that you assumed from the Hurricane Pam exercise 
that FEMA would prearrange for transportation assets, also for 
post-landfall evacuation, so that when the State asked for 
them, those buses would be available immediately. Is that also 
right?
    General Landreneau. Absolutely.
    Senator Lieberman. According to the governor's narrative on 
Hurricane Katrina, which appears at length in Exhibit 18 \1\ in 
the exhibit book, on Monday, August 29, then-FEMA Director 
Michael Brown told Governor Blanco, I presume in response to 
her request, that FEMA would deliver 500 buses. Were you 
present for that conversation?
---------------------------------------------------------------------------
    \1\ Exhibit 18 appears in the Appendix on page 203.
---------------------------------------------------------------------------
    General Landreneau. Yes, sir. I was.
    Senator Lieberman. And is that your recollection, that Mr. 
Brown assured the State on Monday that FEMA would be delivering 
those buses to New Orleans?
    General Landreneau. Yes, sir. Mr. Brown assured the 
governor the buses were available, they had them, and they 
would be on the way.
    Senator Lieberman. OK. But the buses, if I'm right, did not 
arrive any time during that day, Monday.
    General Landreneau. No, sir.
    Senator Lieberman. Nor did they arrive on Tuesday morning. 
Is that right?
    General Landreneau. No, sir.
    Senator Lieberman. So when that happened, did you follow up 
directly with FEMA, either with Mr. Brown or the person in 
charge on the scene, Bill Lokey, to ask where the buses were?
    General Landreneau. Yes, sir, we did, numerous times 
throughout the night, Monday night, Tuesday morning. The 
schedule that was given to us on Tuesday was that they would be 
there, would be driving in and be available first light 
Wednesday morning.
    Senator Lieberman. That was what finally happened. And as 
far as you know, the governor also had followed up with them on 
Monday night and Tuesday to ask where the buses were?
    General Landreneau. Yes, sir, we did. Monday night we 
expected them to be there quickly. We asked again throughout 
the night, Monday night, early Tuesday morning, throughout the 
day on Tuesday.
    Senator Lieberman. And they finally did arrive when, did 
you say?
    General Landreneau. They did not arrive until Thursday.
    Senator Lieberman. Thursday. I don't know whether you know 
this, but our investigation has shown that, to me incredibly 
based on the fact situation that you've just described on 
Monday and Tuesday, FEMA did not actually ask the U.S. 
Department of Transportation to obtain the buses until 1:45 
a.m. on Wednesday.
    Did you know that?
    General Landreneau. I found that out, sir, and it's very 
disappointing to know that's when it occurred because we were 
actually expecting the buses much earlier than even that time.
    Senator Lieberman. Right. If the buses had arrived in New 
Orleans, let's say later Monday after the storm abated, or even 
on Tuesday, could the buses have reached the Superdome? In 
other words, were the roads clear enough to get there?
    General Landreneau. We had procedures in place. We had 
contingencies to be able to get the personnel to the buses 
because the water was rising. In every case, from Monday 
through Thursday, there were--we had plans in place and we had 
contingencies to be able to get all of the personnel onto the 
buses.
    Senator Lieberman. So, you answered my question, then--that 
if the buses had gotten to New Orleans, you could have gotten 
the people to the buses to be evacuated----
    General Landreneau. Absolutely.
    Senator Lieberman [continuing]. From the Superdome and the 
Convention Center. And the bottom line, obviously, is that if 
the buses had arrived on Monday or Tuesday or Wednesday, as 
promised by FEMA, the people would not have to endure the 
conditions they did at the Superdome or the Convention Center.
    General Landreneau. Yes, sir. You're exactly right, sir. 
Being on the ground, I have to tell you that the people that 
were in the Superdome that had used it as a shelter of last 
resort, of course, they came in. They'd used it before that way 
in previous storms. They expected, when the hurricane passed, 
they would walk home.
    They found out that they could not. And then we began, of 
course, rescuing people and bringing them to the Superdome, and 
those people were under a great deal of stress, a great deal of 
trauma, a great deal of depression. So there were a lot of 
emotions. And to have to tell those people--we told those 
people the buses would be there Wednesday morning.
    Senator Lieberman. Right.
    General Landreneau. We told them that on Tuesday. And then 
to have to tell them on Tuesday they would not be there until 
Wednesday had a compounding impact on the stress and the 
situation those people had to deal with in the Superdome.
    Senator Lieberman. Sure. Let me ask a final question about 
this event. If you had known on Monday or Tuesday that FEMA 
would not have been able to deliver the buses or would not 
deliver the buses, in fact, until Thursday morning, would you 
have been able to make alternative plans to obtain buses?
    General Landreneau. The governor, as she testified, gave 
clear direction to her staff and to the agencies to work all 
the resources available in the State. And we were successful in 
getting school buses. But it was being done to really try to 
fill the gaps and augment the buses that we expected from FEMA. 
So we would have had to double up our efforts.
    Senator Lieberman. Sure. Thank you.
    General Honore, let me turn to a different line of 
questioning. First off, I admire you again for the initiative 
you took on that Sunday, August 28, which set a lot of events 
in motion that might not otherwise have been.
    When you arrived in Louisiana, did you believe in your 
military judgment at that point that active duty ground troops 
were required?
    General Honore. No, sir. At that moment we did not need 
ground troops.
    Senator Lieberman. Right.
    General Honore. What we needed were helicopters and boats.
    Senator Lieberman. Right.
    General Honore. We needed naval vessels that could get into 
the littorals so we could use their assets for command and 
control, in addition to their hospital capability.
    But on that morning, based on what I knew from morning 
updates, there were sufficient National Guard troops flowing 
in. What we could do is help with our joint communications, 
which we brought with us.
    Senator Lieberman. Right.
    General Honore. And built rapidly and coordinated with the 
National Guard and assisted them in the planning of the 
evacuation.
    Senator Lieberman. It's an important distinction, and I get 
it. I appreciate it.
    Tell us, if you would, about the guidance after you arrived 
in Louisiana that you were receiving from your superiors at 
NORTHCOM and the inputs that you were providing to them 
regarding the necessity of Federal involvement.
    General Honore. I might say what you have seen is a small 
snippet of a vast amount of information that was not covered 
based on telephone conversations. Some of the e-mails may have 
given the perception that at times, we were not moving or not 
preparing. Much of that was corrected by verbal communication 
between myself and Admiral Keating.
    To support our concept of operation we had to identify the 
unique joint capabilities available. We have the Navy. Get them 
into the fight. We had the U.S. Transportation Command. Get 
them into the fight. Get all the helicopters into the fight, 
along with available medical capability.
    But again, the tasks were search and rescue and evacuation 
of the Superdome and the Convention Center. Long story short, 
those were the tasks we focused on for the first couple days, 
and those were the assets we were asking for.
    Senator Lieberman. Got it. General, I know you heard the 
discussions about the memorandum of understanding that was 
proposed to Governor Blanco on Friday night, the one that would 
have had you serving as the dual status commander.
    I wanted to ask you whether you were involved at all 
personally in the development of that concept, and if so, what 
was the first time that you had been brought into those 
discussions?
    General Honore. Some time Friday morning.
    Senator Lieberman. Yes.
    General Honore. I would say, again, things were pretty 
fuzzy, to determine the exact time.
    Senator Lieberman. Sure. Who was the discussion with?
    General Honore. It was with Admiral Keating and the 
Pentagon. My recommendation at that time was that we did not 
need that authority, that my relationship with General 
Landreneau was sufficient.
    Senator Lieberman. Yes.
    General Honore. Dual hatted command is a tool in the box, 
and it's one we didn't need to use.
    Senator Lieberman. Got it. Because basically, you felt that 
you and General Landreneau had been working this out without 
the need for anything more formal.
    What did they say to you was the operational purpose of the 
command structure that they were proposing, the dual status 
command structure?
    General Honore. I have no idea. I moved on from that, and 
we were doing missions. I was asked for a recommendation, which 
I provided. We finished the update, and we went on with 
missions because our focus was to complete the evacuation of 
the Convention Center.
    Senator Lieberman. Understood and appreciate it.
    Madam Chairman, I have one more question. Should I ask it 
now or wait for a second round?
    Chairman Collins. Go ahead.
    Senator Lieberman. Thanks. I talked to Secretary McHale 
about the two helicopters requested. And I want to sort of 
present you with what I understand of this and ask you to both 
respond. Because we may not have all the facts clear, but I 
think it may highlight a problem in the existing structure. And 
it's one of those things that you wish that there had been more 
exercises on.
    So here's the way I understand it. On Sunday, August 28, 
FEMA did make a request of the Army for two helicopters, which 
would be used for rapid needs assessment.
    General Honore. Yes, sir.
    Senator Lieberman. And those we believe would have come 
from Fort Polk or Fort Hood. They operated from land, 
obviously. Admiral Keating mentioned the movement of the U.S.S. 
Bataan into the area. I'm not sure when it got there. A lot of 
helicopters on it. As I understand, those were search and 
rescue helicopters.
    But I also believe, as General Blum said, that there were 
plenty of National Guard helicopters by that time in the area. 
But here's the bureaucratic question I wanted to ask you. Those 
Guard helicopters were not assigned to the FEMA request. They 
were not part of the FEMA assignment. So, did the bureaucracy 
as it existed mean that this request from FEMA went to the Army 
for the rapid needs assessment helicopters? And it did take a 
couple of days; it went on Sunday and the helicopters didn't 
arrive until Tuesday night--am I right that FEMA didn't turn to 
the other side and ask the Guard if they could help with that 
task? And I don't know whether you had helicopters that could 
have fulfilled that function or the personnel who were trained 
in it.
    Those are the facts as I understand them. And just to make 
sure the next time around we're organized to get assets in as 
quickly as possible, particularly if they're already around the 
area, I wanted you to give me your response to that fact 
scenario, which is as best I understand it.
    General Honore, did you want to start?
    General Honore. That's a good question, and I know you're 
interested in those helicopters. But that is standard operating 
procedure that I've seen for my 6 years dealing with storms. 
Before a storm makes landfall, FEMA has a standing request with 
DOD for helicopters to do assessments. Generally speaking, we 
provide those helicopters in a timely manner.
    The effect of this storm--we've got to remember, this was 
one big, bad storm, was to create 45 mile an hour winds at a 
sustained level. One might say, well, why didn't we use the 
Coast Guard helicopters? Those helicopters are dedicated to 
search and rescue, saving peoples' lives. These two helicopters 
are for FEMA personnel to fly around the area and assess the 
damage.
    Senator Lieberman. What the needs are. Rapid needs 
assessment.
    General Honore. Right, sir. They'd fly in to see the mayor. 
They'd go see a parish president.
    Senator Lieberman. Yes.
    General Honore. Those helicopters did arrive, and we've got 
a timeline on their arrival. They got there on Tuesday, August 
30----
    Senator Lieberman. Right.
    General Honore [continuing]. And were prepared for action, 
as well as the helicopters on the U.S.S. Bataan and the U.S. 
Air Force 920th Rescue Wing. So we had assets coming in on 
August 30. The storm happened on August 29. They arrived, sir, 
the day after. Remember that the Coast Guard helicopters came 
in by sea----
    Senator Lieberman. Right.
    General Honore [continuing]. And their primary focus was on 
search and rescue. They immediately came in from the sea and 
started to work, followed by the U.S.S. Bataan helicopters. But 
the two Army helicopters that you speak of were tasked to FEMA. 
It's a standing operating procedure.
    Senator Lieberman. Right.
    General Honore. We always know they're going to ask for 
them, and we get them there as soon as we can.
    Senator Lieberman. I appreciate the answer. And obviously, 
we'd all say, I presume, that the search and rescue function 
and the helicopters to do it was more important and urgent----
    General Honore. Yes, sir.
    Senator Lieberman [continuing]. Than the rapid needs 
assessment. But that had some high level of importance, too.
    And I guess the question that I'll ask you, General 
Landreneau, in your responses, did you have Guard helicopters 
present on the scene that could have fulfilled that rapid needs 
function earlier, on Monday?
    General Landreneau. No, sir. On the normal hurricane 
situation, it's very common for the National Guard to provide 
helicopters to FEMA to do this function. But in this 
catastrophic event, all of our aviation assets were committed 
to the search and rescue.
    Senator Lieberman. Got you.
    General Landreneau. Every Louisiana helicopter--in fact, we 
had coordinated EMAC agreements prior to the hurricane, so we 
had helicopter units in from Oklahoma, Georgia, Florida, and 
Texas, augmenting our resources. But all of our resources were 
totally committed to the search and rescue effort.
    General Honore. May I come back on this, sir? This clearly 
wasn't occurring on Monday, there was a long period of time on 
Monday where you could not fly helicopters.
    Senator Lieberman. Understood.
    General Honore. The storm had winds exceeding 45 miles per 
hour over 200 miles from the eye. The storm moved through New 
Orleans in the morning but did not clear the Gulf Coast area 
until Monday night, to the extent that it killed two people as 
it moved through Georgia.
    Due to the effects of the winds, most of Monday you could 
not fly a helicopter from Fort Polk to New Orleans. It was 
impossible because of the high winds. The only reason the Coast 
Guard flew in early was because they came from behind the 
storm.
    Those winds were still affecting flight operations, and I 
think the records will show from the National Weather Service, 
through most of Monday because I tried to fly from Atlanta on 
Monday evening to Mississippi and could not because runways 
were not open and you could not fly light jets into the storm. 
As late as midnight Monday night we could not move.
    Senator Lieberman. I appreciate those answers. And I guess 
the question I'm left with is: If you had had additional 
helicopter capacity that you were not using for search and 
rescue, would FEMA have broken through the normal chain and 
come to you with the helicopters there instead of waiting for 
them to come in from other sites?
    We can come back to that. I thank you very much, both of 
you.
    Chairman Collins. Thank you. Senator Warner.
    Senator Warner. Thank you, Madam Chairman.
    And I welcome our two distinguished professional officers 
here today, and I had the privilege of getting to know you, 
General Honore, in the course of this really remarkable chapter 
in how our military, both regular, Reserve, and Guard, came to 
the aid of its follow citizens.
    I really meant what I said to the previous panel. I think 
the heart of America is very grateful for their services and 
has a sense of pride in how our military, which we think is 
operating primarily beyond our shores, can here in our homeland 
come to the aid of our citizens. So I commend you for that.
    And I accompanied the distinguished Chairman of the 
Committee down to Louisiana, where I first met you. But I guess 
I first met you, frankly, on television. And you exhibited to 
me that remarkable quality that some military individuals have, 
and that is called command presence.
    Just your presence there was very reassuring to citizens 
and those in uniform who you, I presume jointly, instructed 
together with your counterpart General Landreneau. I did not 
get to meet you, but I again thank you for your service, too.
    General Landreneau. Thank you, sir.
    Senator Warner. The question that I have has somewhat been 
answered, but I'd like to put it once again on the record and 
let each of you address it.
    While the National Guard and the Federal forces clearly 
mounted a monumental effort, and the facts record that, and you 
also recognize that there could have been a higher degree and a 
better coordination. And there were some areas which, if you 
had the authority to de-conflict, you would have stepped in and 
done so. Some of the results were some resources arriving to 
perform a mission, and in some instances they really weren't 
needed. And in others, there was a shortage. The facts all bear 
this out--not by way of criticism, but those things happen.
    How well you know, General Honore, and perhaps I looked at 
your record. You've seen situations in actual combat. Combat is 
often a state of confusion, and the question of success is 
enabling those who are best able to de-conflict that confusion 
succeed.
    And we can sit down and do all the preplanning and all of 
the orders and all the instructions. And that's important and 
will be done. But it really gets down to the individual 
officers and men who are on the scene and their ability to 
utilize and draw upon their professional training and their own 
judgment and common sense to make it work.
    So can you provide us with some examples of how to improve 
unity of effort between the Title 32 and the Title 10 forces? 
We'll start with you, General Honore.
    General Honore. Yes, sir. The art of command is to take the 
situation as you find it, sir, and un-confuse people.
    Senator Warner. That's right.
    General Honore. That's what General Landreneau and I did by 
standing outside the same tent outside the Superdome, working 
together in collaboration to achieve a unity of effort--not 
through a staff, not by long distance, but the most personal 
way that can happen, face to face and collaborated decisions.
    Many people associate unity of effort and unity command 
with the two headquarters being in the same place. That's not 
required. This storm set back technology 80 years. The American 
people need to understand that this storm beat us. I've been 
beat before, but not this bad. This storm beat everything that 
we pride ourselves in--our transportation system, our airline 
system, our ability to communicate, our ability to take care of 
Americans with the proper healthcare. This storm beat us.
    Senator Warner. But not the will to survive.
    General Honore. Not the will to survive. But it beat us. As 
a result of that, it created a crisis and a disaster with the 
number of Americans who were trapped in the waters in and 
around Orleans and St. Bernard Parishes.
    In the middle of that type of crisis, how can we achieve 
better unity of effort? I think we need to look to the future, 
and not just along the Gulf Coast because these storms don't 
just come along the Gulf Coast. The storm approached the entire 
Eastern shore as well as the Caribbean. We need to establish 
some common command and control locations in which we will put 
our respective response force. Our authority under the National 
Response Plan is to prepare and to respond and to mitigate.
    The Department of Defense worked with the Department of 
Homeland Security and FEMA primarily in the preparation and the 
response. We don't necessarily do a lot of recovery work.
    Looking to the future, I look forward to working with and 
advising those in my higher headquarters at NORTHCOM and the 
Department of Homeland Security in establishing those locations 
where we can practice establishing satellite communications 
because the normal communications systems are going to come 
down. If they don't come down, you're not needed.
    You get a lot of hurricanes where the communications 
systems stay operational, water systems stay up, roads stay 
open, and you are not needed. So you're going to establish and 
use some resources in preparation that you would normally wait 
for the governor to ask for.
    In order to truly be prepared and ensure we never have 
another Katrina, you have to invest resources up front. One of 
the things you can do, and we can do, is establish in each 
State and region a unified headquarters and exercise them 
periodically before hurricane season.
    But that will only solve the hurricane issue. There are 
other disturbances on the earth that require us to actively 
engage in each State and region and practice how we would 
respond to them.
    Senator Warner. Thank you, General Honore. But I have to 
observe that you were able to do your role professionally 
because of your force of personality and the willingness to 
work with your counterparts. You overcame the absence of a 
unity of command, which is so essential to military operations, 
by the force of your own personality and your background and 
knowledge of the culture of the people. But the next situation 
may not have a General Honore----
    General Honore. Yes, sir.
    Senator Warner [continuing]. With that background and that 
understanding. And that's why I turn to you, General, when 
you----
    General Honore. Sir, may I come back on that for one 
second?
    Senator Warner. Yes.
    General Honore. As an observation. You gave us Goldwater-
Nichols, and it was a bitter pill to swallow.
    Senator Warner. Oh, I remember it well.
    General Honore. You've got a joint dependent interagency, 
knock-'em-down Department of Defense. You don't have that in 
the interagency.
    Senator Warner. I realize that.
    General Honore. So the observation to you, our friends in 
the interagency don't approach the joint interdependence the 
same way you forced us down that road.
    Senator Warner. Right.
    General Honore. And we have seen the goodness of that. I 
think if we are going to get a unified unity of effort, it's 
not just a department. You tell us what to do, and we do it, 
the Department of Defense.
    Senator Warner. The Department of Defense.
    General Honore. How do we get all the other agencies in 
unity of effort? Because in most cases, it's their capability 
that's going to carry the day, not the Department. We do the 
search and rescue, and we're out of there. It's what happens 
during the preparation and the recovery that has longstanding 
impact on the American people.
    Senator Warner. Well, General, I don't wish to take this 
time. But I'm pushing that same concept as it relates to Iraq 
today.
    General Honore. Yes, sir.
    Senator Warner. I think our military are performing their 
mission extraordinarily well, but other departments and 
agencies of our Federal Government have not brought to bear 
their resources to the same degree as the Department of 
Defense. And I think--I said those words yesterday to the 
National Security Advisor, ``I think it's time to look at a 
Goldwater-Nichols for this type of situation.'' And our 
Committee will undertake to look at that.
    I'd best return to this subject, though, and give you an 
opportunity, General Landreneau, to talk about how you would 
hope to work the Title 32 and Title 10 forces together in 
future operations with greater efficiency.
    General Landreneau. Thank you, Senator Warner. To obtain 
unity of effort, the first component is to have very clear 
command guidance. We had very clear command guidance in the 
form of the governor. Governor Blanco gave very clear, explicit 
direction.
    We understood what her command guidance was. It was then my 
responsibility to empower junior leaders--because in the fog of 
this--of a catastrophic event, not unlike the fog of war, it is 
very important when you have communication breakdown, when 
lines of communication are disrupted and you have the confusion 
that goes with dealing with a major catastrophic event, you 
have to empower your soldiers, empower your officers, your 
commanders at each level down to the squad leader level, to 
clearly understand the commander's intent, be able to 
articulate it, and be able to independently carry it out.
    And that's how we achieved unity of effort. And I assure 
you, sir, that when the Title 10 forces arrived in Louisiana 
and General Honore and I discussed how we would integrate them 
into--and it was a reinforcement or, if you will, it was adding 
depth to the National Guard formations that were already in 
place.
    We discussed the importance of embedding National Guard 
troops in each of those active duty formations so that you had 
not only the liaison connection between the National Guard and 
the active duty units, but you also had that additional 
component of being able to deal with law enforcement in the 
event that you needed to.
    So we obtained unity of effort by good commander's 
guidance, good communication, and empowering junior officers.
    Senator Warner. And strength of personalities.
    You mentioned the law enforcement aspect. I'm hopeful that 
our government carefully analyzes the doctrine of Posse 
Comitatus, which you understand full well. Do you have any 
views as to whether or not we should provide for means by 
which, say, the President, if necessary--it's a very important 
doctrine--could have the discretion to give waivers for the 
traditional prohibition against the utilization of active 
forces to participate in law enforcement?
    Do you think that's something that should be studied, and 
do you feel that this tragic chapter of our history showed 
instances where, had there been such authority, we might have 
avoided some of the looting and other infractions of law?
    General Landreneau. Senator Warner, it's my personal 
opinion that it is not necessary to make any changes to the 
current Posse Comitatus provisions. I lived the situation. I 
saw it. But I also communicated with General Honore about this 
and with other active commanders to see if they had witnessed 
or had any issues with it. And we saw none. We saw no problems.
    There is a tremendous--when you bring in the Title 10 
forces, when the Title 10 forces come in to augment and add 
depth to the existing National Guard formations that are in 
place in a catastrophic event, just as Katrina, there are just 
critical--just large numbers of critical missions that can be 
accomplished by those active duty troops. And that law 
enforcement piece can be handled by the National Guard troops 
that are in place.
    Senator Warner. All right. General Honore, you and I have 
discussed this. Do you have anything further to add on your 
thoughts about Posse Comitatus and the need to study it?
    General Honore. I think we ought to always review how we're 
doing business. We owe that to the American people because the 
disturbances I spoke to earlier, that could happen, that are 
not natural disasters, that are tied to a pandemic, that are 
tied to the possibility of a contaminant moving across State 
lines.
    I think the conditions that are in the law now are 
substantial enough to have us do our job and gives authority to 
the Executive Branch to execute that, if needed, in 
collaboration with the governor or on top of a governor's 
concern.
    I think what we need to continue to work on in that regard 
is a common understanding of it, and decision points and 
triggers that when you're dealing with a storm is a lot 
different. And sometimes the news reports are going to tell you 
things that would give the impression that you need to pull 
that tool out of the box. And a lot of those reports gave rise 
to that during this storm.
    But most of them, as we've looked back at it and talked to 
people, were not accurate. While there were trying times inside 
the City of New Orleans as far as law enforcement, it in no way 
met the threshold of executing or using that option. But I do 
think we need make sure that it's not a discussion that we must 
have before we put ground troops on the ground.
    It should not be an automatic discussion that we've got to 
have, particularly if the mission is to do search and rescue 
and save lives. That could be a problem if, every time, every 
lawyer in the room put that on the table because they always 
want to talk about it.
    Senator Warner. Well, well done to you and all those under 
your respective commands. And I thank the Chairman for the 
indulgence.
    Chairman Collins. Thank you.
    I want to thank you both for your testimony today and your 
service. General Honore, I was saying to my colleague and 
partner in this endeavor, Senator Lieberman, that your 
testimony reinforces my belief that we should create regionally 
based task forces that have representatives from every agency 
that would be involved in providing services or rescue or 
recovery operations in the event of a catastrophe, whether it's 
a manmade catastrophe such as a terrorist attack or a natural 
one such as Katrina.
    I think one reason that you were able to be so successful 
was your understanding of the region to which you deployed. And 
I thank you. You summed it up well when you said you shouldn't 
be exchanging business cards in the middle of a crisis.
    And if we can get people representing all the different 
players, at all levels of government, also, to meet, to 
exercise together, to train, to plan, I think it is the single 
greatest step we could take to improve the effectiveness of 
response.
    General Honore. And I would really give some incentive to 
industry to play because they can make a lot of difference in 
the response if we engage them up-front during the preparation 
phase as a part of these regional endeavors, ma'am.
    Chairman Collins. Excellent point, Senator Lieberman.
    Senator Lieberman. Madam Chairman, I agree with everything 
you just said. It's the take-away that I have from this hearing 
today. You've both been extremely helpful in your testimony and 
the constructive suggestions that you made on your behalf, and 
I include Admiral Allen. This is real lessons learned.
    And we'll try to do in our work now whatever we can, either 
legislatively or by recommendation for administrative action to 
carry that out. And boy, that's the line that stuck with me, 
too, about not having a situation where, in the middle of a 
disaster, the key people are exchanging business cards.
    Did you two know each other before the----
    General Honore. Yes, sir.
    Senator Lieberman. You did? That helped?
    General Landreneau. Yes, sir.
    General Honore. We speak the same language.
    Senator Lieberman. I noticed. [Laughter.]
    Well, I don't want to get too personal. But when Senator 
Breaux was here, we were members of a very small caucus of two 
Senators, which Senator Breaux referred to as the Cajun Kosher 
Caucus. [Laughter.]
    So I understand the language.
    General Landreneau. I might add that General Honore's son 
is in the Louisiana National Guard, served in Iraq, and 
returned during Katrina. He was able to welcome his son home.
    Senator Lieberman. Isn't that great? I'm not surprised to 
hear that, but it's a pleasure to hear it and an honor to hear. 
Thank you both very much for your continuing service to our 
country.
    Chairman Collins. This hearing is now adjourned. The 
hearing record will remain open for 15 days for additional 
materials. Thank you for your testimony.
    [Whereupon, at 1:26 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7028.001

[GRAPHIC] [TIFF OMITTED] T7028.002

[GRAPHIC] [TIFF OMITTED] T7028.003

[GRAPHIC] [TIFF OMITTED] T7028.004

[GRAPHIC] [TIFF OMITTED] T7028.005

[GRAPHIC] [TIFF OMITTED] T7028.006

[GRAPHIC] [TIFF OMITTED] T7028.007

[GRAPHIC] [TIFF OMITTED] T7028.008

[GRAPHIC] [TIFF OMITTED] T7028.009

[GRAPHIC] [TIFF OMITTED] T7028.010

[GRAPHIC] [TIFF OMITTED] T7028.011

[GRAPHIC] [TIFF OMITTED] T7028.012

[GRAPHIC] [TIFF OMITTED] T7028.013

[GRAPHIC] [TIFF OMITTED] T7028.014

[GRAPHIC] [TIFF OMITTED] T7028.015

[GRAPHIC] [TIFF OMITTED] T7028.016

[GRAPHIC] [TIFF OMITTED] T7028.017

[GRAPHIC] [TIFF OMITTED] T7028.018

[GRAPHIC] [TIFF OMITTED] T7028.019

[GRAPHIC] [TIFF OMITTED] T7028.020

[GRAPHIC] [TIFF OMITTED] T7028.021

[GRAPHIC] [TIFF OMITTED] T7028.022

[GRAPHIC] [TIFF OMITTED] T7028.023

[GRAPHIC] [TIFF OMITTED] T7028.024

[GRAPHIC] [TIFF OMITTED] T7028.025

[GRAPHIC] [TIFF OMITTED] T7028.026

[GRAPHIC] [TIFF OMITTED] T7028.027

[GRAPHIC] [TIFF OMITTED] T7028.028

[GRAPHIC] [TIFF OMITTED] T7028.029

[GRAPHIC] [TIFF OMITTED] T7028.030

[GRAPHIC] [TIFF OMITTED] T7028.031

[GRAPHIC] [TIFF OMITTED] T7028.032

[GRAPHIC] [TIFF OMITTED] T7028.033

[GRAPHIC] [TIFF OMITTED] T7028.034

[GRAPHIC] [TIFF OMITTED] T7028.035

[GRAPHIC] [TIFF OMITTED] T7028.036

[GRAPHIC] [TIFF OMITTED] T7028.037

[GRAPHIC] [TIFF OMITTED] T7028.038

[GRAPHIC] [TIFF OMITTED] T7028.039

[GRAPHIC] [TIFF OMITTED] T7028.040

[GRAPHIC] [TIFF OMITTED] T7028.041

[GRAPHIC] [TIFF OMITTED] T7028.042

[GRAPHIC] [TIFF OMITTED] T7028.043

[GRAPHIC] [TIFF OMITTED] T7028.044

[GRAPHIC] [TIFF OMITTED] T7028.045

[GRAPHIC] [TIFF OMITTED] T7028.046

[GRAPHIC] [TIFF OMITTED] T7028.047

[GRAPHIC] [TIFF OMITTED] T7028.048

[GRAPHIC] [TIFF OMITTED] T7028.049

[GRAPHIC] [TIFF OMITTED] T7028.050

[GRAPHIC] [TIFF OMITTED] T7028.051

[GRAPHIC] [TIFF OMITTED] T7028.052

[GRAPHIC] [TIFF OMITTED] T7028.053

[GRAPHIC] [TIFF OMITTED] T7028.054

[GRAPHIC] [TIFF OMITTED] T7028.055

[GRAPHIC] [TIFF OMITTED] T7028.056

[GRAPHIC] [TIFF OMITTED] T7028.057

[GRAPHIC] [TIFF OMITTED] T7028.058

[GRAPHIC] [TIFF OMITTED] T7028.059

[GRAPHIC] [TIFF OMITTED] T7028.060

[GRAPHIC] [TIFF OMITTED] T7028.061

[GRAPHIC] [TIFF OMITTED] T7028.062

[GRAPHIC] [TIFF OMITTED] T7028.063

[GRAPHIC] [TIFF OMITTED] T7028.064

[GRAPHIC] [TIFF OMITTED] T7028.065

[GRAPHIC] [TIFF OMITTED] T7028.066

[GRAPHIC] [TIFF OMITTED] T7028.067

[GRAPHIC] [TIFF OMITTED] T7028.068

[GRAPHIC] [TIFF OMITTED] T7028.069

[GRAPHIC] [TIFF OMITTED] T7028.070

[GRAPHIC] [TIFF OMITTED] T7028.071

[GRAPHIC] [TIFF OMITTED] T7028.072

[GRAPHIC] [TIFF OMITTED] T7028.073

[GRAPHIC] [TIFF OMITTED] T7028.074

[GRAPHIC] [TIFF OMITTED] T7028.075

[GRAPHIC] [TIFF OMITTED] T7028.076

[GRAPHIC] [TIFF OMITTED] T7028.077

[GRAPHIC] [TIFF OMITTED] T7028.078

[GRAPHIC] [TIFF OMITTED] T7028.079

[GRAPHIC] [TIFF OMITTED] T7028.080

[GRAPHIC] [TIFF OMITTED] T7028.081

[GRAPHIC] [TIFF OMITTED] T7028.082

[GRAPHIC] [TIFF OMITTED] T7028.083

[GRAPHIC] [TIFF OMITTED] T7028.084

[GRAPHIC] [TIFF OMITTED] T7028.085

[GRAPHIC] [TIFF OMITTED] T7028.086

[GRAPHIC] [TIFF OMITTED] T7028.087

[GRAPHIC] [TIFF OMITTED] T7028.088

[GRAPHIC] [TIFF OMITTED] T7028.089

[GRAPHIC] [TIFF OMITTED] T7028.090

[GRAPHIC] [TIFF OMITTED] T7028.091

[GRAPHIC] [TIFF OMITTED] T7028.092

[GRAPHIC] [TIFF OMITTED] T7028.093

[GRAPHIC] [TIFF OMITTED] T7028.094

[GRAPHIC] [TIFF OMITTED] T7028.095

[GRAPHIC] [TIFF OMITTED] T7028.096

[GRAPHIC] [TIFF OMITTED] T7028.097

[GRAPHIC] [TIFF OMITTED] T7028.098

[GRAPHIC] [TIFF OMITTED] T7028.099

[GRAPHIC] [TIFF OMITTED] T7028.100

[GRAPHIC] [TIFF OMITTED] T7028.101

[GRAPHIC] [TIFF OMITTED] T7028.102

[GRAPHIC] [TIFF OMITTED] T7028.103

[GRAPHIC] [TIFF OMITTED] T7028.104

[GRAPHIC] [TIFF OMITTED] T7028.105

[GRAPHIC] [TIFF OMITTED] T7028.106

[GRAPHIC] [TIFF OMITTED] T7028.107

[GRAPHIC] [TIFF OMITTED] T7028.108

[GRAPHIC] [TIFF OMITTED] T7028.109

[GRAPHIC] [TIFF OMITTED] T7028.110

[GRAPHIC] [TIFF OMITTED] T7028.111

[GRAPHIC] [TIFF OMITTED] T7028.112

[GRAPHIC] [TIFF OMITTED] T7028.113

[GRAPHIC] [TIFF OMITTED] T7028.114

[GRAPHIC] [TIFF OMITTED] T7028.115

[GRAPHIC] [TIFF OMITTED] T7028.116

[GRAPHIC] [TIFF OMITTED] T7028.117

[GRAPHIC] [TIFF OMITTED] T7028.118

[GRAPHIC] [TIFF OMITTED] T7028.119

[GRAPHIC] [TIFF OMITTED] T7028.120

[GRAPHIC] [TIFF OMITTED] T7028.121

[GRAPHIC] [TIFF OMITTED] T7028.122

[GRAPHIC] [TIFF OMITTED] T7028.123

[GRAPHIC] [TIFF OMITTED] T7028.124

[GRAPHIC] [TIFF OMITTED] T7028.125

[GRAPHIC] [TIFF OMITTED] T7028.126

[GRAPHIC] [TIFF OMITTED] T7028.127

[GRAPHIC] [TIFF OMITTED] T7028.128

[GRAPHIC] [TIFF OMITTED] T7028.129

[GRAPHIC] [TIFF OMITTED] T7028.130

[GRAPHIC] [TIFF OMITTED] T7028.131

[GRAPHIC] [TIFF OMITTED] T7028.132

[GRAPHIC] [TIFF OMITTED] T7028.133

[GRAPHIC] [TIFF OMITTED] T7028.134

[GRAPHIC] [TIFF OMITTED] T7028.135

[GRAPHIC] [TIFF OMITTED] T7028.136

[GRAPHIC] [TIFF OMITTED] T7028.137

[GRAPHIC] [TIFF OMITTED] T7028.138

[GRAPHIC] [TIFF OMITTED] T7028.139

[GRAPHIC] [TIFF OMITTED] T7028.140

[GRAPHIC] [TIFF OMITTED] T7028.141

[GRAPHIC] [TIFF OMITTED] T7028.142

[GRAPHIC] [TIFF OMITTED] T7028.143

[GRAPHIC] [TIFF OMITTED] T7028.144

[GRAPHIC] [TIFF OMITTED] T7028.145

[GRAPHIC] [TIFF OMITTED] T7028.146

[GRAPHIC] [TIFF OMITTED] T7028.147

[GRAPHIC] [TIFF OMITTED] T7028.148

[GRAPHIC] [TIFF OMITTED] T7028.149

[GRAPHIC] [TIFF OMITTED] T7028.150

[GRAPHIC] [TIFF OMITTED] T7028.151

[GRAPHIC] [TIFF OMITTED] T7028.152

[GRAPHIC] [TIFF OMITTED] T7028.153

[GRAPHIC] [TIFF OMITTED] T7028.154

[GRAPHIC] [TIFF OMITTED] T7028.155

[GRAPHIC] [TIFF OMITTED] T7028.156

[GRAPHIC] [TIFF OMITTED] T7028.157

[GRAPHIC] [TIFF OMITTED] T7028.158

[GRAPHIC] [TIFF OMITTED] T7028.159

[GRAPHIC] [TIFF OMITTED] T7028.160

[GRAPHIC] [TIFF OMITTED] T7028.161

[GRAPHIC] [TIFF OMITTED] T7028.162

[GRAPHIC] [TIFF OMITTED] T7028.163

[GRAPHIC] [TIFF OMITTED] T7028.164

[GRAPHIC] [TIFF OMITTED] T7028.165

[GRAPHIC] [TIFF OMITTED] T7028.166

[GRAPHIC] [TIFF OMITTED] T7028.167

[GRAPHIC] [TIFF OMITTED] T7028.168

[GRAPHIC] [TIFF OMITTED] T7028.169

[GRAPHIC] [TIFF OMITTED] T7028.170

[GRAPHIC] [TIFF OMITTED] T7028.171

[GRAPHIC] [TIFF OMITTED] T7028.172

[GRAPHIC] [TIFF OMITTED] T7028.173

[GRAPHIC] [TIFF OMITTED] T7028.174

[GRAPHIC] [TIFF OMITTED] T7028.175

[GRAPHIC] [TIFF OMITTED] T7028.176

[GRAPHIC] [TIFF OMITTED] T7028.177

[GRAPHIC] [TIFF OMITTED] T7028.178

[GRAPHIC] [TIFF OMITTED] T7028.179

[GRAPHIC] [TIFF OMITTED] T7028.180

[GRAPHIC] [TIFF OMITTED] T7028.181

[GRAPHIC] [TIFF OMITTED] T7028.182

[GRAPHIC] [TIFF OMITTED] T7028.183

[GRAPHIC] [TIFF OMITTED] T7028.184

[GRAPHIC] [TIFF OMITTED] T7028.185

[GRAPHIC] [TIFF OMITTED] T7028.186

[GRAPHIC] [TIFF OMITTED] T7028.187

[GRAPHIC] [TIFF OMITTED] T7028.188

[GRAPHIC] [TIFF OMITTED] T7028.189

[GRAPHIC] [TIFF OMITTED] T7028.190

[GRAPHIC] [TIFF OMITTED] T7028.191

[GRAPHIC] [TIFF OMITTED] T7028.192

[GRAPHIC] [TIFF OMITTED] T7028.193

[GRAPHIC] [TIFF OMITTED] T7028.194

[GRAPHIC] [TIFF OMITTED] T7028.195

[GRAPHIC] [TIFF OMITTED] T7028.196

[GRAPHIC] [TIFF OMITTED] T7028.197

[GRAPHIC] [TIFF OMITTED] T7028.198

[GRAPHIC] [TIFF OMITTED] T7028.199

[GRAPHIC] [TIFF OMITTED] T7028.200

[GRAPHIC] [TIFF OMITTED] T7028.201

[GRAPHIC] [TIFF OMITTED] T7028.202

[GRAPHIC] [TIFF OMITTED] T7028.203

[GRAPHIC] [TIFF OMITTED] T7028.204

[GRAPHIC] [TIFF OMITTED] T7028.205

[GRAPHIC] [TIFF OMITTED] T7028.206

[GRAPHIC] [TIFF OMITTED] T7028.207

[GRAPHIC] [TIFF OMITTED] T7028.208

[GRAPHIC] [TIFF OMITTED] T7028.209

[GRAPHIC] [TIFF OMITTED] T7028.210

[GRAPHIC] [TIFF OMITTED] T7028.211

[GRAPHIC] [TIFF OMITTED] T7028.212

[GRAPHIC] [TIFF OMITTED] T7028.213

[GRAPHIC] [TIFF OMITTED] T7028.214

[GRAPHIC] [TIFF OMITTED] T7028.215

[GRAPHIC] [TIFF OMITTED] T7028.216

[GRAPHIC] [TIFF OMITTED] T7028.217

[GRAPHIC] [TIFF OMITTED] T7028.218

[GRAPHIC] [TIFF OMITTED] T7028.219

[GRAPHIC] [TIFF OMITTED] T7028.220

[GRAPHIC] [TIFF OMITTED] T7028.221

[GRAPHIC] [TIFF OMITTED] T7028.222

[GRAPHIC] [TIFF OMITTED] T7028.223

[GRAPHIC] [TIFF OMITTED] T7028.224

[GRAPHIC] [TIFF OMITTED] T7028.225

[GRAPHIC] [TIFF OMITTED] T7028.226

[GRAPHIC] [TIFF OMITTED] T7028.227

[GRAPHIC] [TIFF OMITTED] T7028.228

[GRAPHIC] [TIFF OMITTED] T7028.229

[GRAPHIC] [TIFF OMITTED] T7028.230

[GRAPHIC] [TIFF OMITTED] T7028.231

[GRAPHIC] [TIFF OMITTED] T7028.232

                                 <all>

</pre></body></html>
